<html>
<title> - A RELIANCE ON SMART POWER--REFORMING THE PUBLIC DIPLOMACY BUREAUCRACY</title>
<body><pre>[Senate Hearing 110-890]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-890

 A RELIANCE ON SMART POWER--REFORMING THE PUBLIC DIPLOMACY BUREAUCRACY

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs










                  U.S. GOVERNMENT PRINTING OFFICE
45-580 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
             Joel C. Spangenberg, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
                   Thomas A. Bishop, Legislative Aide
                    Jessica K. Nagasako, Chief Clerk















                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     9

                               WITNESSES
                      Tuesday, September 23, 2008

Christopher Midura, Acting Director, Office of Policy, Planning, 
  and Resources for Public Diplomacy and Public Affairs, U.S. 
  Department of State, accompanied by Ambassador Scott H. Delisi, 
  Director, Career Development and Assignments, Bureau of Human 
  Resources, U.S. Department of State, Rick A. Ruth, Director, 
  Office of Policy and Evaluation Bureau of Educational and 
  Cultural Affairs, U.S. Department of State, and Peter Kovach, 
  Director, Global Strategic Engagement Center, U.S. Department 
  of State.......................................................     3
Douglas K. Bereuter, President and Chief Executive Officer, The 
  Asia Foundation................................................    20
Ambassador Elizabeth F. Bagley, Vice Chairman, U.S. Advisory 
  Commission on Public Diplomacy.................................    22
Stephen M. Chaplin, Senior Advisor, The American Academy of 
  Diplomacy......................................................    25
Ronna A. Freiberg, Former Director,Congressional and 
  Intergovernmental Affairs, U.S. Information Agency.............    27
Jill A. Schuker, Fellow, University of Southern California, 
  Center for Public Diplomacy....................................    29

                     Alphabetical List of Witnesses

Bagley, Ambassador Elizabeth F.:
    Testimony....................................................    22
    Prepared statement...........................................    55
Bereuter, Douglas K.:
    Testimony....................................................    20
    Prepared statement...........................................    46
Chaplin, Stephen M.:
    Testimony....................................................    25
    Prepared statement...........................................    59
Freiberg, Ronna A.:
    Testimony....................................................    27
    Prepared statement...........................................    63
Midura, Christopher:
    Testimony....................................................     3
    Prepared statement...........................................    41
Schuker, Jill A.:
    Testimony....................................................    29
    Prepared statement...........................................    68

                                APPENDIX

Chart referred to by Ms. Schuker.................................    79
Questions and Responses for the Record from:
    Mr. Midura...................................................    80
    Ambassador DeLisi............................................    91
    Mr. Ruth.....................................................   105
    Mr. Kovach...................................................   112
    Ms. Bagley...................................................   119
    Mr. Chaplin..................................................   127
    Ms. Schuker..................................................   143
``Getting the People Part Right,'' A Report on the Human 
  Resources Dimension of U.S. Public Diplomacy, 2008, The United 
  States Advisory Commission on Public Diplomacy.................   149
``A Foreign Affairs Budget for the Future, Fixing the Crisis in 
  Diplomatic Readiness,'' Resources for US Global Engagement, 
  Full Report, October 2008, The American Academy of Diplomacy...   190

 
 A RELIANCE ON SMART POWER--REFORMING THE PUBLIC DIPLOMACY BUREAUCRACY

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2008

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:29 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    I want to welcome our guests today. Thank you so much for 
being here.
    Public diplomacy is an essential tool, as it was in the 
past, in our efforts to win the Global War on Terrorism. During 
the Cold War, public diplomacy helped spread our values of 
freedom and democracy to those who were struggling behind the 
Iron Curtain. After the Cold War, the need for public diplomacy 
to some appeared less certain. Political pressure to do away 
with the organizations of the Cold War increased and the U.S. 
Information Agency, along with two other agencies, was merged 
in 1999 into the State Department.
    The tragedies of September 11, 2001, renewed interest in 
public diplomacy as a means to convince foreign publics, 
especially those in Muslim countries, that we were friends and 
potential partners. An array of commissions urged improvements 
in our public diplomacy efforts and President Bush soon formed 
Policy Coordinating Committees at the National Security Council 
to better harmonize public diplomacy efforts. At the same time, 
others called for creating a new public diplomacy agency, 
dramatically increasing resources, encouraging more exchange 
programs, engaging in a war of ideas, and communicating across 
all types of media.
    There is now a clear consensus that our public diplomacy is 
a vital tool in America's diplomatic arsenal and our use of it 
must be improved. A recognition of America's need for more 
public diplomacy extends beyond its borders. In a recently 
published report by the Asia Foundation, both Asian and 
American leaders recommend a new program of cultural, artistic, 
and intellectual interaction between the civil societies of 
both the U.S. and Southeast Asia. Southeast Asian 
representatives called for in particular the creation of new 
American centers to promote a better understanding of the 
United States. It is important that it is foreigners who are 
demanding to better understand the United States.
    In today's hearing, I want to examine more closely the 
following issues. Is our existing public diplomacy strategy 
accomplishing its objectives? How well are agencies 
coordinating? What improvements need to be made to the public 
diplomacy structure in Washington and in the field? What role 
should the private sector play? And what are the State 
Department's human capital and program gaps in public 
diplomacy?
    I also want to stress my belief that all of our diplomats, 
especially those who project our image to another Nation's 
public, need to continue to develop a deeper appreciation and 
understanding of the culture within which they will work.
    The United States is a country that values democracy and 
freedom. For the United States to continue to recover its 
international reputation, it not only needs to live up to its 
values, but also share them in an effective manner with the 
rest of the world.
    I look forward to hearing from our witnesses today, and I 
want to welcome you at this time. We have Christopher Midura, 
Acting Director, Office of Policy, Planning, and Resources for 
Public Diplomacy and Public Affairs, Department of State. We 
have Ambassador Scott Delisi, Director, Career Development and 
Assignments, Bureau of Human Resources, Department of State; 
Rick A. Ruth, Director, Office of Policy and Evaluation, Bureau 
of Educational and Cultural Affairs, Department of State; and 
Peter Kovach, Director, Global Strategic Engagement Center, 
Department of State.
    It is the custom of this Subcommittee to swear in all 
witnesses, so I would ask all of you to stand and raise your 
right hand.
    Do you swear that the testimony you are about to give to 
this Subcommittee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Midura. I do.
    Mr. Delisi. I do.
    Mr. Ruth. I do.
    Mr. Kovach. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative.
    Before we start, I want you to know that your full 
statement will be made a part of the record. I would also like 
to remind you to keep your remarks brief, given the number of 
people testifying this afternoon.
    Mr. Midura, will you please begin with your statement.

TESTIMONY OF CHRISTOPHER MIDURA,\1\ ACTING DIRECTOR, OFFICE OF 
POLICY, PLANNING, AND RESOURCES FOR PUBLIC DIPLOMACY AND PUBLIC 
 AFFAIRS, U.S. DEPARTMENT OF STATE, ACCOMPANIED BY AMBASSADOR 
SCOTT H. DELISI, DIRECTOR, CAREER DEVELOPMENT AND ASSIGNMENTS, 
 BUREAU OF HUMAN RESOURCES, U.S. DEPARTMENT OF STATE, RICK A. 
  RUTH, DIRECTOR, OFFICE OF POLICY AND EVALUATION, BUREAU OF 
EDUCATIONAL AND CULTURAL AFFAIRS, U.S. DEPARTMENT OF STATE, AND 
  PETER KOVACH, DIRECTOR, GLOBAL STRATEGIC ENGAGEMENT CENTER, 
                    U.S. DEPARTMENT OF STATE

    Mr. Midura. Mr. Chairman, I wish to express my thanks for 
your invitation to testify here today on smart power and reform 
of the public diplomacy bureaucracy. Secretary Condoleezza Rice 
and Under Secretary for Public Diplomacy and Public Affairs 
James K. Glassman look forward to continuing our close 
cooperation with the Congress to strengthen public diplomacy's 
role as a vital national security priority.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Midura appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    Under the direction of Under Secretary Glassman, we are 
reviewing, improving, and modernizing public diplomacy 
structures and programs in the State Department to build upon 
the government-wide public diplomacy leadership role assigned 
to the Under Secretary by the White House. Under Secretary 
Glassman has emphasized in several articles and interviews, as 
well as in testimony before Congress, that we are engaged in a 
war of ideas with violent extremists who seek to attack the 
United States and its allies and to recruit others to do the 
same. Public diplomacy professionals are being called upon for 
a renewed commitment to ideological engagement, designing 
programs and spreading messages to directly confront the 
ideology of violent extremism as practiced by al-Qaeda, the 
FARC in Colombia, and other organizations.
    We wish to amplify credible voices of moderation and to 
discourage potential recruits from joining terrorist movements. 
We can do this by combining our programs and technology to help 
build real and virtual networks among groups in affected 
societies who reject the terrorists' world view with a special 
focus on young people.
    Under Secretary Glassman has sought to reorient public 
diplomacy toward these ends. Perhaps most visible has been his 
coordination of strategic communication in the interagency 
through his chairmanship of the Policy Coordinating Committee. 
The PCC comprises civilian and military communications leaders 
from the Departments of State, Defense, and the Treasury, the 
National Security Council, the intelligence community, and 
other agencies.
    As a complement to the work of the PCC, another of Mr. 
Glassman's interagency initiatives has been the creation of the 
Global Strategic Engagement Center (GSEC), which serves as a 
subject matter advisory group for the Under Secretary and 
members of the PCC on topics relating to the war of ideas. GSEC 
staff are active duty military and civilians from the 
Departments of State and Defense and the Central Intelligence 
Agency and the director is a senior Foreign Service officer.
    I would like to highlight here the increasingly coordinated 
way that State Department employees are working with their 
Defense Department and military colleagues around the world. 
Today, the emblematic projection of the American Government 
abroad is the Provincial Reconstruction Team, a flexible mix of 
military capabilities with our civilian-directed development, 
public diplomacy, information, education, economic, and social 
tools. This week, we at the State Department co-hosted the 
first ever worldwide synchronization conference for combined 
State Department and DOD strategic communication leadership. I 
think that is a glimpse of the future.
    One of the most prominent recommendations in the 2003 
report of the Djerejian Group, of which now Under Secretary 
Glassman was a member, was the public diplomacy needed to 
establish a new culture of measurement within all public 
diplomacy structures. This criticism was echoed by the 
Government Accountability Office soon thereafter. The 
Department has since made major strides in establishing 
rigorous performance measurement and evaluation standards. The 
Evaluation Division of the Bureau of Educational and Cultural 
Affairs has been a leader in this field for several years by 
demonstrating the impact of exchange programs in building 
mutual understanding between Americans and people around the 
world.
    In order to bring evaluation and measurement for the rest 
of public diplomacy up to ECA's high standard, the Under 
Secretary recently established an Evaluation and Measurement 
Unit (EMU), charged with development performance measurement 
instruments and executing detailed evaluations of the 
implementation and effectiveness of all State Department public 
diplomacy programs overseas. We intend to boost our investment 
in the work of the EMU, enabling us to better document the 
value of public diplomacy to the Department, the OMB, the 
Congress, and the American taxpayer.
    Winning the war of ideas depends on getting the right 
information to the right people, using the right technology. 
Our Bureau of International Information Programs has been a 
leader in taking public diplomacy to the Internet through its 
America.gov website. This site features six language versions, 
including Arabic and Persian, discussion groups, video content, 
and special events, such as the Democracy Video Challenge, in 
which foreign citizens are encouraged to upload their own video 
creations to complete the phrase, ``Democracy is.'' IIP's 
digital outreach team blogs extensively on U.S. policy and 
society in Arabic, Persian, and Urdu, giving us a voice in the 
growing realm of online conversations. The Bureau is also 
expanding into diverse areas such as online professional 
networks, social media, virtual worlds, podcasting, and mobile 
technologies.
    While global ideological engagement has necessitated 
greater focus on expanding and updating our information 
programs, we also remain committed to maintaining the 
excellence of the programs managed by our Bureau of Educational 
and Cultural Affairs, which have for years formed the heart and 
soul of public diplomacy efforts.
    The Fulbright Program remains the unchallenged world leader 
among academic exchange programs, while the International 
Visitor Leadership Program brings to the United States each 
year approximately 4,000 foreign professionals in a wide 
variety of fields for invaluable exposure to our culture, our 
society, and our policies. IVLP alumni have included 277 
foreign heads of State. We will be looking to expand ECA's 
English teaching and youth scholarship programs in the coming 
months to target successor generations of youth, particularly 
those from disadvantaged backgrounds and/or countries of 
strategic priority for the United States.
    To conclude, the modernization of public diplomacy 
structures and programs is a top priority of the Department 
Under Secretary Glassman. We are also working in ever-closer 
coordination with our interagency colleagues, particularly our 
strategic communication colleagues at the Department of 
Defense. With the support of Congress, we will continue to 
expand, carefully target, and rigorously evaluate our public 
diplomacy activities to meet the challenges of global 
ideological engagement.
    Thank you for your attention, and my colleagues and I would 
be glad to answer your questions at this time.
    Senator Akaka. Thank you very much, Mr. Midura. Thank you 
for your statement. I am so glad you had included some of your 
programs and especially programs with youth and to look at the 
future. In a sense, this hearing is one that is looking at the 
future, too. We will have a new Administration, whoever it will 
be, but we wanted to take an early step to begin to work on our 
diplomatic efforts. I personally feel it is so important for 
our country to let the rest of the world know our culture and 
who we are as well as to know their cultures so that we can 
work together with the other nations.
    In a sense, we use the word here and for this hearing, 
``smart power,'' reliance on smart power, and I am looking at 
our witnesses as those who have had the experience in this area 
and will be able to offer some recommendations that we may be 
using as we try to reform the public diplomacy bureaucracy.
    Mr. Midura and Mr. Kovach, the June 2007, U.S. National 
Strategy for Public Diplomacy and Strategic Communication was 
the first of its kind. Since the strategy was implemented, what 
measurable progress have you made in meeting the three public 
diplomacy priorities?
    Mr. Midura. Mr. Chairman, the three priorities that we had 
in that document, the three strategic objectives were America 
as a positive vision of hope and opportunity, isolating and 
marginalizing violent extremists, and promoting common 
interests and values. These strategic objectives are truly 
broad goals that give direction to our programs here and 
overseas. I believe that public diplomacy programs are leading 
us toward these goals, although we may never entirely reach 
them.
    This document has been valuable to us for a couple of 
reasons. Within existing resource limitations, it has given our 
overseas missions and our partner agencies here in Washington a 
common agenda and that has helped us establish a basis for 
better communication and cooperation through the interagency, 
and Mr. Kovach can talk about that in a moment. The document is 
simple, it is brief, it is easy to understand and use, and it 
even contains templates to facilitate planning in offices here 
and at posts overseas.
    It has also given us an agenda for the priorities that we 
need to address. Many, in fact, have actually been implemented. 
Some of these include expansion of resources for exchange 
programs, which is extremely important to us; the modernization 
of communications, which has been a huge priority of our Bureau 
of International Information Programs; updating technology; 
creating regional media hubs, which is something that we are 
engaged in around the world for better messaging; creation of 
our Rapid Response Unit, which is our 24/7 office that monitors 
coverage of the United States in the media overseas and offers 
very quick guidance for responding to it.
    We have also had greater program cooperation between the 
public and private sectors. We have expanded our Office of 
Private Sector Outreach to try and bring in more of these. And 
we have had greater coordination within the interagency, and 
Mr. Kovach, if you want to talk about that a little bit.
    Mr. Kovach. Yes. Thank you for having us here today. It is 
a great opportunity for an exchange at a very critical moment. 
I became the head of Global Strategic Engagement Center (GSEC) 
a month ago and I took the job--I had come back to Washington 
slated for another job--simply because of Mr. Glassman's 
incredible energy and the feeling that I could carry over an 
important interagency structure into whatever comes next that 
would hold.
    I should back up 8 years because at exactly this stage of 
the second Clinton Administration, I was essentially doing the 
same thing. I was coordinating an interagency process that 
could break out into working groups around any crisis and to do 
strategic communication, and I can tell you, the culture has 
really evolved in these 8 years. Probably September 11, 2001, 
probably some credit to the Administration, people are really 
leaning forward.
    Now, at that time, the structure I ran was all State 
Department officers and we would reach out into the various 
other bureaucracies--DOD, VBG, USAID, the intelligence 
community--as needed to pull around a working group on a 
crisis. Serbian democracy was a crisis we worked. We worked on 
Sierra Leone some with both European and international 
organization partners.
    The office I run now is actually staffed by people from the 
intelligence community, the Defense Department, from our own 
Office of International Information Programs. So we both have 
reached out and we have reach in capabilities. My people are 
learning the State Department, my people from outside, and we 
are learning how to tap what we need in their bureaucracy. So 
it is a terrific model and I can only say I hope it continues.
    The one thing I wanted to add to what Mr. Midura said, 
being a field officer, is that the emphasis on youth programs 
is really a very new thing. I think 28 years ago when I came 
into the Foreign Service, we rarely looked at anyone younger 
than grad students, and now we have the Yes Program from some 
vulnerable youth countries in the Muslim world, from some other 
countries. It is a real sea change in our targeting and I just 
wanted to recognize that. Thank you.
    Senator Akaka. Thank you.
    Mr. Midura, the 2007 PART assessment indicated that there 
is no strong evidence that interagency or private collaboration 
has led to meaningful resource allocation decisions. This 
surprises me, since the U.S. Strategy for Public Diplomacy and 
Strategic Communications stated that, ``all segments of the 
U.S. Government have a role in public diplomacy.'' Do you 
believe that the 2007 PART assessment was accurate, and if so, 
what has been done since to correct the situation? The Program 
Assessment Rating Tool, which is PART, is an evaluation tool.
    Mr. Midura. And could you read the criticism again, 
Senator, what the PART said?
    Senator Akaka. Yes. Well, my question to you was do you 
believe that this 2007 PART assessment was accurate? If so, 
what has been done since then to--if needed to correct the 
situation? Mr. Ruth.
    Mr. Ruth. Thank you, Senator. Yes. In fact, what the 2007 
PART assessment said, did have a great deal of truth to it. We 
engaged very diligently with OMB and, of course, with the Hill 
and with the Government Accountability Office and others over 
the last several years to bring about what I consider to be 
some of the most significant changes in the way public 
diplomacy is measured, frankly, in the history of public 
diplomacy.
    Like my colleagues, I have been in this business for quite 
some time, 33 years in this case, and I have seldom seen so 
much happen so quickly. Before Under Secretary Hughes came on 
board, and now under Under Secretary Glassman, there was, for 
example, no office dedicated to the evaluation of public 
diplomacy. Now, there is a full-time office, and as Mr. Midura 
indicated, Under Secretary Glassman has institutionalized this 
so that there is, in fact, an office in his own unit that is 
staffed by full-time and professional performance measurement 
experts and evaluators.
    We have also instituted two very significant steps that are 
global to address two simple-sounding questions that were posed 
to us by both Under Secretaries. One is ``what,'' and the other 
is ``so what?'' What are you doing around the world with all of 
that taxpayers' money in public diplomacy, and what difference 
has it made?
    And so we have instituted, first of all, in answer to the 
``what'' question, a new software system called the Mission 
Activity Tracker, which is a global system used by all posts 
around the world which can now record--in which they record in 
real time all public diplomacy activities with a great deal of 
specificity in terms of audience, strategic goal, venue, 
individuals engaged, even the gender and so forth, and this 
kind of data can now be analyzed back in Washington and reports 
produced that can tell the Under Secretary and other senior 
managers exactly what is being--what is happening and how the 
public diplomacy fund is being spent.
    So, for example, we could have certainly told you several 
years ago that we were doing programs in certain ways of 
certain kinds. Now we can say, for example, that under the 
topic of civil society, that X-percentage of programs involve 
this kind of audience, journalists, or educators. We can say 
whether they involve women or men, whether they involve 
parliamentarians or not, whether they are cooperative with 
local institutions. We have a wealth of data that public 
diplomacy senior managers have never had before.
    The second, in answer to the ``so what'' question, which is 
the most interesting, of course, I think for most of us and 
also the most difficult to get at, we developed what was called 
the Public Diplomacy Impact Project to precisely ask that 
question. What has been the aggregate impact of public 
diplomacy on the audiences we have engaged around the world? We 
conducted this program the first time last year and it sounds a 
little bit like a Supreme Court case because I refer to it as 
``Landmark v. Limited.'' It is a landmark case, landmark study 
because it is the first time that the State Department ever 
undertook to analyze in a statistical quantitative way the 
impact of public diplomacy.
    But it is very limited because it has only been done once 
so far in a specific period of time with a certain sample size. 
We are now working on a second version, the Public Diplomacy 
Impact second version, so we can begin to move from a baseline 
and start to see if there are trends and changes in different 
directions.
    And so from my perspective, these have put real teeth, if 
you will, into what Under Secretary Glassman has referred to as 
the culture of measurement.
    Senator Akaka. Thank you very much for that response.
    Mr. Midura, State places great emphasis on engaging and 
leveraging the resources of the private sector for public 
diplomacy. In 2005, State strongly endorsed GAO's 
recommendation to develop a strategy for engaging the private 
sector in pursuit of common public diplomacy initiatives. Has 
State developed this strategy?
    Mr. Midura. Well, Mr. Chairman, I can't speak for the rest 
of the Department here, only for Public Diplomacy itself. We 
have our own Office of Private Sector Outreach and that office 
has been looking for ways to work with the private sector to 
expand our public diplomacy reach. These partnerships have 
occurred between us and businesses, NGOs, foundations, 
educational institutions, and others. We define these 
relationships as sort of a collaborative arrangement between 
the U.S. Government and our non-governmental partners in which 
the goals and the structure are set out beforehand.
    The Under Secretary's office concentrates on building and 
maintaining new relationships with leaders in U.S. businesses, 
and an example of that that we have had recently was a U.S. 
marketing college that was held in conjunction with Novartis, 
Kraft, and eBay and was hosted at our Foreign Service 
Institute, and it combined strategic communicators from the 
interagency to listen to private sector experts on marketing 
and the kind of tools that the private sector uses to market 
products. While they realized that was an imperfect comparison 
in some respects with public diplomacy, it is a means of 
thinking outside the box and this week-long intensive course 
was so successful that we are going to work with the same 
organizations to do it again in January.
    These are the kinds of things that we have been able to do. 
Obviously, we would like to expand in this area even more. We 
have had some success in the past with humanitarian relief, but 
we would like to be able to use, to leverage, our contacts with 
the private sector to expand particularly in English teaching, 
but also in youth exchange and other similar programs.
    Senator Akaka. Yes. This recommendation that I mentioned in 
2005 by GAO was included in a report entitled, ``Interagency 
Coordination Efforts Hampered by the Lack of a National 
Communication Strategy.'' From what you just mentioned, you 
have been working on it and my question was whether you had 
developed a strategy for that.
    Mr. Midura. Yes. The national strategy that we were 
discussing earlier was directly related to that criticism and 
the need for getting a document out there that would allow the 
different agencies and the different posts to be working from 
the same sheet of music. I think this document does that. 
Obviously, it is something that we will probably want to update 
again in the not-too-distant future. But as you mentioned 
earlier, going into the Presidential transition period right 
now, it is probably a good time for us to be thinking about 
future directions of public diplomacy but perhaps not exactly 
producing a new national strategy for a while yet.
    Senator Akaka. Well, let me call on my friend, Senator 
Voinovich, for his statement or questions that he may have for 
this panel.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. I apologize for 
not being here for your testimony, but we had Secretary Paulson 
before our policy luncheon. I wanted to hear from him about a 
few things, what he thinks we ought to do right now.
    As a member of the Foreign Relations Committee, I have had 
the opportunity to see firsthand the success and failure of our 
efforts to win the hearts and minds of world citizens and I 
remain concerned that our public diplomacy is arguably at its 
lowest point in history. I once described it as our President 
got elected and he thought he was talking to Texas. Then he 
realized he was talking to the United States, and then he 
realized he was talking to the world. Once that happens, when 
the water goes over the dam, it is hard to get it back up 
again.
    As a Nation, we must do a better job communicating our 
policy objectives and actions on the international stage. The 
solution to this challenge does not rest solely with the State 
Department, however, nor does it lie in the creation of a new 
government entity.
    Mr. Chairman, you and I have worked on some concrete tools 
to improve our public diplomacy, such as reform of the visa 
waiver program, combining security enhancements while also 
facilitating legitimate travel by some of our closest allies. 
In some of those nations over there, this is the most damaging 
thing that we had because they felt that they were being denied 
the opportunity of a visa waiver.
    Now we must ensure the State Department has the leadership 
capacity, the resources and people necessary to do the job we 
have asked them to do. Our men and women in uniform can no 
longer be responsible for foreign assistance and messaging. 
Secretary Gates, in July, called for increasing our investment 
in the capacity and readiness of the State Department. I think 
it was welcome news for everybody.
    Congress has had a number of thoughtful reports and 
recommendations to improve our global engagement, including the 
recent report by the Commission on Smart Power and the 
forthcoming report by the American Academy of Diplomacy. The 
Commission on Smart Power emphasized the fact that our success 
in public diplomacy depends in large part on building long-term 
people-to-people relationships. Given the short-term duration 
of our hardship posts, I am concerned about the ability of our 
Foreign Service officers to cultivate the relationships 
necessary to carry our message forward.
    According to the American Academy of Public Diplomacy, the 
number of State Department personnel responsible for public 
diplomacy is 24 percent less than in 1986. The Academy outlines 
a plan to meet this shortfall, which includes a focus on 
training. The Academy also recognizes the need to more 
effectively use the Internet to win the hearts and minds of 
broader audiences.
    The Subcommittee's oversight work on radicalization shows 
that much work needs to also be done in that area.
    Congress must recognize its responsibility by making 
careful choices among the many domestic and international 
funding priorities to ensure the State Department has the tools 
necessary to meet new realities and emerging challenges. Our 
budget situation demands that we allocate scarce resources to 
areas where the United States can achieve the greatest return 
on investment.
    Again, I am sorry that I wasn't here for your testimony, 
but are you at all, any of you, familiar with the 
recommendations that are coming from the American Academy of 
Public Diplomacy or are familiar with what Joe Nye and Richard 
Armitage did in terms of smart power. I would be interested in 
what you think of those recommendations.
    Mr. Midura. Yes, Senator, if we can talk about them 
separately. I think that the smart power recommendations are--
public diplomacy was only a part of that and I believe that the 
report was pointing in the right direction. Obviously, there 
are resource issues. While we support the President's budget, I 
think I would be untruthful if I didn't say that if we had more 
public diplomacy resources, we could probably do more and could 
probably move the needle a bit farther, as you implied.
    The Advisory Commission report was largely focused on 
personnel issues. As we have here, the Director of our Office 
of Career Development and Assignments in the Bureau of Human 
Resources, I think it might be good for Ambassador Delisi to 
address that one.
    Senator Voinovich. Thank you. We have heard from the folks 
that have been--a lot of those folks, Tom Pickering and others, 
have had some good experience, but you are the ones that are on 
the firing line and I would really like to know just how you 
feel about it, and if we had the capacity to do it, do you 
think what they are recommending in the area of human resources 
is adequate to get the job done.
    Mr. Delisi. I will try to answer some of that, Senator. 
Thank you for the question and thank you for the chance to be 
here.
    I have spent most of my career in the field, and I came 
back about a year ago and became the Director for Career 
Development and Assignments. This is my first time dealing with 
some of the resource implications of our business, and it is 
frightening when we look at it. Right now, when we look at our 
Service as a whole, we are probably short at least 1,000 
officers just to fill the jobs that we have. But even then, 
when we are filling these jobs, we aren't giving them the 
training that they need. We wouldn't have enough bodies to do 
the training, give them the linguistic skills, and address all 
of the other challenges they are going to face out there.
    So to give them that training, it means that some of these 
jobs are going to go unfilled even if we had that extra 1,000 
bodies. Now, this is in the Foreign Service broadly. I will 
talk about public diplomacy, as well.
    But when we look at it, we also recognize that in the past 
few years, increasingly, we don't need to just fill those 1,000 
jobs that we are short. We need to fill more. We need to be 
creating additional positions. We need to be doing more in 
China, in India, in the Middle East, in parts of Africa, and in 
Indonesia. The demand to get our people out there is greater 
and greater, there are greater challenges, and we just don't 
have the resources.
    On the public diplomacy side of the house right now, I 
think it is even--there is some positive news, but it is a grim 
picture overall. When I look at the mid-level up, from our 
Foreign Service 02 ranks and above, we face deficits in every 
single one of those grades, including in our senior grades, 
most heavily at the 02 and 01 level. A lot of that is because 
right before the merger, USIA's hiring, as I understand it, had 
really dropped off. USIA's hiring was low.
    Since then, we had a surge, as you know. We had the 
Diplomatic Readiness Initiative and we brought in a number of 
folks, and that has helped. At the lower grades, we have a 
group of new young public diplomacy officers who are coming 
along and that is good. And when we looked at DRI, we brought 
in a greater proportion of public diplomacy officers than 
officers in some of our other skill codes. So that is helpful.
    But in the past 4 years, we basically have been hiring 
again at attrition. So we aren't able to really get ahead of 
this curve, and even as it is, if we bring these folks up--
right now, on the public diplomacy side of the house, we 
probably, in raw numbers, we have a 64-officer surplus. That is 
our latest figure. But again, they are at the wrong grades, and 
while you have 64 extra officers--by the time we put them into 
training slots, give them the linguistic training, 2 years in 
Arabic, 2 years in Chinese, what have you--we are still 
considerably short to fill the jobs we have, and we want to be 
filling even more.
    So we have a real challenge on our hands. For this coming 
year, we are able to hire 186 more officers--186 above 
attrition. We will bring in a greater percentage of public 
diplomacy officers within that group of 186 than in our other 
cones--than in political, management, economic, etc. But still, 
we have to bring in officers in all of our cones. So we have a 
considerable way to go.
    The good news is that while we have these gaps in the 
senior ranks among the public diplomacy officers, in a service 
that is made up of generalists, right now, for example, we have 
136 Foreign Service officers who are not public diplomacy 
officers but who are filling public diplomacy jobs. The bulk of 
them are political officers, many economic officers and also 
consular and management. We are seeing that they get the 
training and, let us say, in today's world, all of us have to 
be public diplomacy officers. I mean, I am a political officer. 
That is what I grew up as in the Foreign Service. But you learn 
very quickly. We all have to have these skills.
    And I think there is a much greater emphasis these days on 
ensuring that our officers get these types of training, even if 
they aren't PD officers, that they at least get fundamentals of 
public diplomacy training early in their career, and if we are 
going to put them into public diplomacy, we really make every 
effort to ensure that they get the training. And the biggest 
constraint on that is just sometimes it is a function of 
timing. Again, given the lack of resources, sometimes we have 
to choose between filling the positions and giving them the 
full range of training, and it is a balancing act and we 
usually consult closely with the geographic bureau and the 
embassy and public diplomacy colleagues and say, what is the 
trade-off here? Where are we going to get the best value?
    Senator Voinovich. Are you familiar with the 
recommendations from the Academy of Public Diplomacy?
    Mr. Delisi. I am not, sir.
    Senator Voinovich. I would like you to become familiar with 
them because we are going to be dealing with this next year and 
I would like to have their recommendations verified from those 
of you that are on the firing line and get your best opinion on 
it.
    Mr. Delisi. Their recommendation--was this in terms of 
additional numbers----
    Senator Voinovich. It was human capital. They are talking 
about the core diplomacy. They are talking about public 
diplomacy. They are talking about economic assistance. They are 
talking about restructuring, of helping governments to 
restructure. You also have the initiative that we have back 
from Secretary Condoleezza Rice where she is talking about 
adding more people, I think, what, 500 in the State Department 
and 500 throughout other Federal agencies and then another 
volunteer corps that would be available to deal with--we have a 
lot of problems that deal with our public diplomacy. So I am 
anxious to get your best thoughts on those recommendations.
    I think the last thing I would like to mention is the issue 
of the change of the guard over there. You had Charlotte Beers, 
then you had Margaret Tutwiler, and then you had Karen Hughes, 
and now James Glassman. Does anybody want to comment on how 
that doesn't work, impedes your ability to get things done?
    Mr. Midura. I think it is fairly obvious that quick 
turnover at the Under Secretary level is not particularly 
helpful in terms of developing a coherent long-term strategy 
and progression for public diplomacy. I think that there are 
certain commonalities to all of them. I believe that every 
Under Secretary of Public Diplomacy favors increasing exchanges 
and working with the Congress on exchange programs.
    Under Secretary Glassman's particular focus, as we were 
mentioning earlier, is on the war of ideas. That is, if not 
unique to him, at least a focus that he has chosen to make 
during the short time that he has remaining in his tenure. It 
is an item that was part of the National Strategy. It was the 
second of the three. But he is a strong believer that this is 
an area in which public diplomacy can make a very great impact, 
and so that is how he has chosen to focus most of his attention 
during the remaining time here. That doesn't mean we aren't 
still working for improved mutual understanding or working with 
our partners on exchanges, but it does mean that we are 
investing more of our resources right now in programs that are 
information-based and that are intended to establish a hostile 
climate for violent extremists.
    Senator Voinovich. Well, I was just mentioning to Senator 
Akaka, how would you like to get together and draft a resume of 
the next person? Would that be inconsistent with your job?
    Mr. Midura. Senator, yes, I think you could say that. 
[Laughter.]
    Yes, it would probably be inconsistent.
    Senator Voinovich. Well, I am serious. I think that one of 
the problems that we have is that we don't pay enough attention 
to the people that we hire for these jobs, and I think that the 
better we have--I am on the Foreign Relations Committee. The 
more information we have about what it is, the kind of 
characteristics that we are looking for, the better off we are 
going to be. And instead of waiting for them to send somebody 
up, to send something over there and say, this is a very 
important post. Our public diplomacy is at the lowest it has 
ever been probably in this Nation's history. This is a very 
important job and here is the kind of individual that we think 
you are going to need in that job if we are going to turn this 
thing around, including the next President and how he handles, 
or she handles their job.
    Mr. Midura. Yes, I appreciate that, Senator. Obviously, our 
focus is going to be primarily on the structure of the public 
diplomacy cone itself and whether we are doing the right things 
in terms of the structure of our overseas posts, whether we are 
doing the right things in terms of strategic planning, and what 
we could do better in the future, and then discussing this with 
the transition team. I will leave the selection of the next 
Under Secretary to the next Administration and to you.
    Senator Voinovich. If you would do me a favor, with or 
without attribution, to define what you think we should be 
looking for in that position. With or without attribution. Mr. 
Kovach.
    Mr. Kovach. If I could speak to that, I have worked with 
all four Under Secretaries that you mentioned and I have to say 
the turnover has not been ideal, but all four of them, I think, 
brought an important component to the job.
    Charlotte Beers, coming from Madison Avenue, was frankly 
appalled at how anecdotal, impressionistic our baselines were. 
When we looked at PD communication problem, we saw a foreign 
audience that we were trying to move more toward our position 
or to support of our position or at least to dissonance so they 
wouldn't support, let us say, violent extremism, and she really 
brought a strong sense of that culture of measurement, and I 
think some of our initial attempts to define measurement that I 
took part in happened on her watch. I think that is a very 
important set of skills in a leader.
    Margaret Tutwiler, who was our spokesperson, understood 
public affairs and understood the domestic political arena, 
went over and was our very successful ambassador in Morocco and 
she came back and she has kind of got street smarts. Most of my 
career has been in the Arab world. She understood that some of 
the people we most had to address were not only the youth, not 
only elite youth, middle-class youth, but we had to go--for any 
of you who have ever been to Rabat, Morocco, across the river 
there, there is a huge, what they call in French, a Bidonville, 
that we would call a slum, and that was really the recruiting 
ground for potential jihadists in Morocco. And she came up with 
this great idea of access English programs, where if we could 
give them 2 hours of English after school on the high school 
level with some kind of follow-up that the best students would 
be tracked into other scholarship opportunities, we would have 
a very successful program, and that program has flourished 
throughout the Muslim world since. A huge contribution, in my 
view.
    Karen Hughes--I was in Pakistan as the PAO, the public 
affairs officer, the year of the earthquake and the private 
sector partnership she and four other CEOs cobbled led to, I 
think close to $150 million of private American corporate aid 
going to Pakistan, well publicized by my team. And what was 
really touching, I think what some editorialists picked up on, 
was that some of that aid was not from the companies, it was 
from the employees of the companies who contributed. That was a 
huge--I mean, you talk about private sector participation in 
public diplomacy. She brought that, and then she brought us a 
much greater awareness of how effective exchanges are and how 
that needs more support.
    Mr. Glassman is terrific. Under Secretary Glassman, he has 
such vision. He is such an experienced communicator, 
connections in the world of publishing and the world of ideas. 
All four of them bring great resumes, and I could say any 
combination of those skill sets as you look to confirm the next 
Under Secretary would be great. I just wish that we had a 
longer time with each of them.
    Senator Akaka. Thank you, Senator Voinovich.
    On paper, the public diplomacy area officers report to 
regional assistant secretaries and through them to the Under 
Secretary of State for Political Affairs. But I understand that 
these officers actually take policy guidance and get resources 
from the Under Secretary of State for Public Diplomacy and 
Public Affairs. Does this arrangement happen with only the 
public diplomacy function, and if so, why is that?
    Mr. Midura. Senator, I don't know if it is entirely unique. 
It is a little different in the case of public diplomacy 
because the public diplomacy offices located in each of the 
regional bureaus, depending on the needs of that particular 
bureau and the arrangements that have been reached and the 
staffing, are all a little different in terms of their 
relationship with the regional bureaus. But as you said, they 
do report to their Assistant Secretary. They are considered to 
be part of those bureaus and the relationship with the Under 
Secretary for Public Diplomacy is a policy-related one, not a 
direct line of authority.
    That said, we do have the resources at our disposal that 
are used for public diplomacy programs. My office transfers 
these resources both in terms of dealing with base budgets at 
the beginning of the year, but also to answer specific program 
requests during the year. So we have an extremely close 
relationship with these offices. The Under Secretary meets on a 
weekly basis with the Public Diplomacy Deputy Assistant 
Secretaries from each of the regional bureaus and we in our 
office also meet with the public diplomacy office directors 
once a week. So we know what their resource concerns are. We 
know what their policy concerns are.
    And although the relationship is not absolutely direct in 
terms of lines of authority, it works for the context of the 
Department, and in a manner of speaking, it is also the same 
relationship that, say, a political officer working in the 
European area would have with the Under Secretary for Political 
Affairs. Although that line of authority may be a little bit 
more direct than with public diplomacy, they still report to 
the Assistant Secretary and that is still the head of the 
office that they work for. So it may not be entirely unique.
    Mr. Delisi. In my current position, we don't really get 
into this. Speaking as someone who has been out in the field 
dealing with this, for us, what we have found is that the Under 
Secretary's office had the money. They had the resources. They 
had the programs. And they provided us with kind of the big 
picture and the global vision and here are the broad themes 
that we want to sound and we are going to make these programs 
available to you to advance this goal.
    We still, though, would engage with our assistant secretary 
and our public diplomacy office in the Africa Bureau, in the 
South Asia Bureau, because each of these programs, while the 
vision remains the same, depending on where you are and how you 
implement that vision, the context of the program is going to 
be a little bit different and it has got to reflect the policy 
considerations for Eritrea or whatever country you are in.
    And so we found it worked reasonably well. I mean, I never 
had real problems in balancing our engagement with the Under 
Secretary's folks and getting their idea of the broad 
directions we wanted to go in and balancing and making that 
reflective of the specific policies unique to the countries we 
were serving in. It worked pretty well.
    Senator Akaka. I also understand that the Public Diplomacy 
Area Office Directors, the directors attend meetings with 
regional assistant secretaries and deputy assistant 
secretaries. I just wonder about whether the attendance at 
these meetings translated into policy outcomes. Mr. Kovach.
    Mr. Kovach. I was the Director of the East Asia Office for 
2\1/2\ years and I can tell you that they did. I had a 
respected voice. We were dealing--this is 2003 to 2005. We 
dealt a lot with how to, I think, put certain security programs 
in Southeast Asia to Muslim majority countries or to Muslim 
media directed at Muslims. We instituted public diplomacy in 
the Pacific Islands, an area where the Chinese were exerting 
more and more soft power, and we came up with a formula to do 
that. We talked to the Chinese about reaching out to their 
Muslims to give them more of a sense of global connection, 
supplied speakers at, I believe, the 600th anniversary of Islam 
in China, which a group of Chinese Muslim intellectuals were 
celebrating with seminars and historical reflections.
    So yes, there was a lot of that. Then day-to-day issues 
would come up, Burma and how pronounced we should be about our 
feelings about the regime there, publicly versus through 
private diplomacy in APAC and the Southeast Asia Organization.
    So yes. I mean, public diplomacy and reorganization started 
with a proposition that we would have a seat at the policy 
table and I think that has been gained by having those offices 
in the regional bureaus that spearhead our main product, which 
is bilateral diplomacy. And I think that at the same time, even 
then in probably a less perfect iteration of structure, I 
regularly saw the people from the Under Secretary's office and 
we regularly had a dialogue on resources. I got a line budget, 
but I also was able to compete for discretionary money against 
the originality and relevance, policy relevance, of projects I 
would put forward. So I thought it was a great perch.
    Senator Akaka. Yes. Well, can you give me an example, and 
my question is whether any of these policy profiles were used, 
such as what impacts have public diplomacy offices had on 
issues like NATO enlargement, national missile defense, and 
Georgia?
    Mr. Kovach. Well, those were not issues in the East Asia 
Bureau, but I truly believe that the way we put our policies 
forward, especially--I mean, look at the main issue of this 
decade, has been counterterrorism and the global war. Some of 
the ways we--some of the agreements we crafted with countries 
in that region might get the backs of moderate Muslims up, and 
I think that we were at the table not only in figuring out how 
to structure those agreements, but how to publicize them, what 
should be in the public domain and what should remain in the 
domain of diplomatic discourse. I think we had a very important 
seat at the table in determining that and those in some ways 
were our major diplomatic products of that mid-decade period.
    Senator Akaka. Yes. Well, Mr. Midura and Mr. Ruth, the 
public diplomacy area offices are apparently designed to be the 
field's window on Washington and Washington's window on the 
field. In this age of instantaneous e-mail communications, I am 
concerned that this arrangement may not add value. For example, 
if an officer at the post has a problem relating to the 
Fulbright program, why isn't it more efficient for that officer 
simply to reach out directly to the appropriate office in the 
Bureau of Education and Cultural Affairs?
    Mr. Midura. Mr. Chairman, they do routinely. In fact, I can 
vouch for that one personally because as the Cultural Attache 
in Prague, I had a substantial Fulbright program, a substantial 
number of International Visitors, U.S. Speakers and others, and 
we coordinated routinely with ECA and IIP on these programs. We 
obviously let our desk officer know what was going on with 
these, as well. But the desk officers had a lot of 
responsibilities and particularly within the PD area. Many of 
these desk officers are responsible for more than one country. 
So as long as the concern was with an individual program, it 
was much more likely that I was going to get a problem resolved 
by going directly to the bureau that ran that program.
    We worked with the desk officers primarily on resource 
issues, on policy issues that needed the support of the bureau, 
and ad hoc things that came around where we did not necessarily 
know where to go in the Department and were enlisting the 
support of the desk officer to find the right person. But when 
it came to programs from the Bureau of Educational and Cultural 
Affairs or IIP, we had contact people within those bureaus and 
we went to them directly.
    Senator Akaka. Mr. Kovach.
    Mr. Kovach. If I could give you an example, my last 
overseas tour was in Pakistan and during my time, we negotiated 
the largest student Fulbright Program in history, and this was 
not an easy negotiation because there were three funding 
groups, including the Government of Pakistan using, I believe, 
World Bank money, and USAID and the State Department. If my 
regional public diplomacy office hadn't had good contacts with 
the branch of ECA, the Academic Programs Branch, because the 
politics were very tricky, and it is not only the Academic 
Programs Branch, but it is the Board of Foreign Scholars and 
what their attitudes are because this was a program that had 
some interesting features to it, let us just say.
    Without those cues from that desk, I don't think I ever 
could have pulled this off with the State Department, with my 
own agency, believe it or not. It was vital to have them there 
as intermediaries. It would not have happened.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. Would you agree that our public 
diplomacy is at a low point?
    Mr. Midura. I don't really know how to answer that, 
Senator. I mean, my experience goes back for 20 years, and from 
the perspective of the individual officer, I think people are 
pretty much doing the same things they have always been doing. 
Now, whether the resources have kept up with the needs or not 
is another question.
    Senator Voinovich [presiding]. I think we know that they 
haven't.
    Mr. Midura. We try and work with what we have got. I mean, 
that is really the--the posts know they have a certain amount 
of money each year. They know that, we in the Under Secretary's 
office, have a certain amount that we are going to try and get 
them as much as we can. In the case of countries where there 
are immediate crisis needs, we work with our Congressional 
partners for supplementals. It would be nice if we had more in 
the way of resources, but at the same time, I am not certain 
that we would be able to handle a huge influx of new resources 
right now without also reviewing our staffing patterns and 
other things. I think all of these things are of a piece and we 
probably have to look at the whole picture for the next 
Administration and we know how that is going to go.
    I mean, speaking as an individual PD officer, I don't feel 
any lower or higher than I did 10 years ago. I think we go out 
there and we try and do the best we can with what we have.
    Senator Voinovich. Did anybody sit down and say, like Karen 
Hughes or Jim Glassman come in and say, hey, I think we have a 
problem. Let us get all you folks together and let us develop a 
strategic plan on how we can do better. Is there such a plan at 
all in existence?
    Mr. Midura. Well, I mentioned earlier that with the 
transition coming up, we are certainly going to have to look at 
revising the strategic plan that we have got right now. It is 
the sort of thing that we would definitely want to look to do 
in the future, to see whether the one we have from 2007 is 
appropriate to the coming Administration and the needs of PD in 
the future. We will update that document. It is just a question 
of when.
    Senator Voinovich. One of the things that we have tried to 
do is we have a high-risk list that the GAO puts together, and 
Senator Akaka and I have tried to work on getting OMB and GAO 
to sit down and develop a strategic plan on how we are going to 
get them off the high-risk list and develop metrics in 
determining whether or not progress is being made. It would 
seem to me that with a new Administration coming in, that would 
be really good for the State Department to look at that area 
and look at the human resources that you need, but also here is 
where we are and here is where we want to be, here are the 
problems, and try and develop a real plan on how to do better 
than what you have been able to do.
    Mr. Midura. I absolutely agree. As far as the evaluation 
piece is concerned, that is something that I think we are going 
to make good progress on fairly quickly. Mr. Ruth mentioned PD 
impact earlier and how we are attempting to aggregate data and 
look at the impact of public diplomacy programs worldwide. We 
have had a good start on that, but due to resource constraints, 
we were only able to do a limited number of sample posts at the 
beginning. While OMB was very pleased with the measures that we 
used and the indicators, the response that we got was, OK, this 
is good, but we need a lot more. We need a much larger sample.
    And, in fact, we have invested a substantial amount of this 
year's resources in expanding that sample. We have the contract 
for that coming up soon and we will expand that to other posts 
so that we can get a better baseline view of exactly how 
effective these programs are. I think that will help a lot.
    We have already discussed the human resource issues. That 
is something we are definitely going to have to look at. It is 
being reviewed. And we do have the good news that people are 
moving up in the ranks and we are going to have a lot more 02 
public diplomacy officers in the not-too-distant future than we 
do right now. So the huge deficits that we have been facing 
will disappear. So there are optimistic elements to this.
    Senator Voinovich. If we provide the money.
    Mr. Midura. Well, some of them are there already. I mean, a 
lot of these people right now are at the junior officer level, 
or entry-level officer. They are doing consular tours in many 
cases and they will move into public diplomacy when they have 
completed those tours. So we should have more of these people 
for the future.
    Senator Voinovich. Are there any benchmark programs out 
there? I mean, is there a consensus of what country is doing 
the best job in the area of public diplomacy right now?
    Mr. Midura. I don't know if we have that done by country. 
We tend to do evaluation more by program. Mr. Ruth, if you want 
to address that.
    Mr. Ruth. Thank you, Senator. No, there is no ranking 
country by country of who is considered to be doing the best 
job. There are now, as I mentioned, that we have the 
information and the Mission Activity Tracker, it is possible 
for the Under Secretary, and, in fact, any State Department 
manager or policy maker, to look and see exactly what each 
country, in fact, is doing, which audiences they are engaging 
on which topics and in what format, and that gives us a large 
leg up in terms of transparency and accountability and the 
ability to make decisions about resource allocations in the 
future. The kinds of formal evaluations that we undertake are 
generally program by program and not country by country.
    Senator Voinovich. I have no other questions. I don't know 
if Senator Akaka wants to ask any more questions.
    Senator Akaka [presiding]. Yes. Well, thank you very much, 
my friend, Senator Voinovich.
    I want to thank this panel very much for your experience, I 
think even wisdom on how we can work on our diplomatic areas in 
the future of our country. I would tell you that I am very 
interested in my friend's suggestion about resumes---- 
[Laughter.]
    As something that can really help determine the type of 
person we need in the office. And so that is something that we 
need to work on.
    I want to thank this panel very much for your responses and 
your testimony here and ask you to continue to be close to us 
as we continue in this effort and look forward to working with 
you in the new year.
    Again, I want to say thank you very much for your 
statements and your responses.
    Mr. Midura. On behalf of my colleagues and myself, thanks 
to both of you and thank you for your support of public 
diplomacy. We really appreciate it.
    Senator Akaka. Thank you.
    Now, I would like to welcome the second panel of witnesses, 
the Hon. Douglas K. Bereuter, President and CEO of the Asia 
Foundation, and a former U.S. Congressman; Ambassador Elizabeth 
Bagley, Vice Chairman, U.S. Advisory Commission on Public 
Diplomacy, Washington, DC; Stephen Chaplin, Senior Advisor, the 
American Academy of Diplomacy, Washington, DC; the Hon. Ronna 
Freiberg, Former Director of Congressional and 
Intergovernmental Affairs, U.S. Information Agency; and the 
Hon. Jill A. Schuker, Fellow, University of Southern 
California, Center for Public Diplomacy.
    As you know, it is a custom of this Subcommittee to swear 
in all witnesses, so I ask all of you to please stand and raise 
your right hand.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Bereuter. I do.
    Ms. Bagley. I do.
    Mr. Chaplin. I do.
    Ms. Freiberg. I do.
    Ms. Schuker. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative.
    Before I start, I want you to know that your full written 
statements will be part of the record. I would also like to 
remind you to keep your remarks brief, given the number of 
people testifying this afternoon.
    It is great to see a friend, my former colleague in the 
House, Mr. Bereuter, and it is good to have you here. May I ask 
you to begin and proceed with your statement.

   TESTIMONY OF DOUGLAS K. BEREUTER,\1\ PRESIDENT AND CHIEF 
             EXECUTIVE OFFICER, THE ASIA FOUNDATION

    Mr. Bereuter. Thank you, Mr. Chairman, Senator Voinovich. 
It is nice to be here today. And thank you for the opportunity 
to testify. As I understand the focus of the Subcommittee's 
inquiry, it builds upon the widespread recognition that America 
needs to increase its public diplomacy efforts and especially 
to make its public diplomacy far more effective than it is 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bereuter appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    I will not neglect your invitation to give you my thoughts 
on the subject of desirable administrative and structural 
reforms. The views I offer today are not the position of the 
Asia Foundation, but strictly my own. I wrote my own testimony 
based upon 26 years of serving in the House and 20 years of 
that on the Foreign Affairs Committee, 10 years on 
Intelligence, now the last 4 years chairing the Asia 
Foundation, which is, I think, the premier development 
organization working in Asia.
    I feel it is my duty to tell you today as a citizen with 
that experience base that although administrative and 
structural changes in the bureaucracies of our important 
departments and agencies surely could bring positive changes in 
the effectiveness of America's public diplomacy, a more 
fundamental reorientation of our public diplomacy effort and 
emphasis is far more important.
    I think it is a common mistake or misunderstanding repeated 
over and over again when our government or advisory groups seek 
to improve the American public diplomacy structure. It is a 
failure to recognize that while bureaucratic reorganization and 
better management practices can bring improvements, the most 
important American public diplomacy assets are, (a) the 
American people, and relatedly, (b) the opportunities for 
foreigners to see demonstrated or otherwise experience those 
characteristics of our country and our people which the world 
traditionally has most admired.
    The world has admired American openness, its system of 
justice, popular culture--generally, and unmatched environment 
of opportunity. They admire, above all, the practices, 
principles, and values undergirding America's tradition of 
democracy, pluralism, rule of law, and tolerance, which 
Americans embrace as universally applicable. It is only when we 
seem to have strayed from those principles, practices, and 
values that we disappoint the world and we are seen as 
hypocritical.
    Today, while there is still some confusion and uncertainty, 
a misplaced sense of priorities and ineffective practices in 
the public diplomacy of the country, it is fortunately 
recognized increasingly and accepted that public diplomacy 
cannot just be regarded as a job of the Nation's diplomats, 
high-level State Department spokesmen, or other governmental 
officials. A major impediment to improving America's public 
diplomacy, in my judgment, has been the prevalence of the view 
that improving our Nation's image and influence abroad is 
primarily a direct governmental function. One might say to 
emphatically make a point that the implementation of effective 
public policy and public diplomacy specifically is too 
important to be solely or primarily the responsibility of 
government officials.
    I looked at the recommendations of eight high-level task 
forces, commissions, committees convened in the aftermath of 
September 11, 2001. I found a very strong consensus that it is 
in our national interest to not only emphasize public 
diplomacy, especially in the Islamic world, but also that such 
an effort should be implemented with a very major role for non-
governmental organizations, credible high-profile individual 
Americans, and the private sector in general.
    Ambassador Edward Djerejian had something to say about that 
and he certainly endorses that kind of view. He said the United 
States should recognize that the best way to get our message 
across is directly to the people rather than through formal 
diplomatic channels, and I have a cautionary note on page three 
of my prepared statement about the use of American business 
expertise in public diplomacy. I am not going to go into that 
in detail because of the shortness of time.
    I also suggest on the bottom of that page and on page four, 
as well, that some of the views of one of the country's noted 
scholars and programmatic and practical advisors on the 
subject, Dr. Nancy Snow of the Newhouse School of Public 
Communications at Syracuse University has a lot to say that is 
very valuable. I take four of her 10 points there and I 
specifically call them to your staff's attention and to you.
    So there is nothing really new about the U.S. Government 
conducting some of its public diplomacy programs through non-
governmental organizations. We, at the Asia Foundation, do a 
lot of that. We have a whole range of things that I mentioned 
on the bottom of page four that, in fact, are public diplomacy, 
and we use USAID funds, we use from private donors, we use from 
other governments who also are trying to encourage democracy, 
pluralism, tolerance, citizen participation, and they help 
reinforce the principles and values which Americans embrace, as 
I said, universally.
    I call to your attention, as Senator Voinovich has 
mentioned, the CSIS Commission on Smart Power. I was there when 
they released its report. Two of your Senate colleagues served 
on the body, two from the House, former Senator Nancy 
Kassebaum, and that report emphasizes that the American public, 
drawn from every corner of the world, constitutes the U.S.'s 
greatest public diplomacy asset, especially those citizens who 
beneficially volunteer, study, work, and travel abroad, if 
their conduct reflects those things which foreigners have long 
admired about America and our country.
    As I said, in my judgment, the American people and the 
positive features of our whole American experience, observed 
abroad and here at home by example or direct contact, are our 
two greatest assets. They make our case better than any 
government agency ever can. Our public diplomacy officers 
abroad should not have the view that they directly deliver 
public diplomacy. They should employ Americans and the 
experience in America, even if that experience is demonstrated 
in Asia or Africa or elsewhere in the world. That is their 
duty, to use those resources not directly, but to use the best 
resources of the American people.
    So I looked at about 10 specific categories of proposals 
that various organizations and people have made. I am going to 
make very candid comments about them, I think things that are 
realistic from a Congressional point of view as to what can be 
accomplished. You can take items from No. 2 and No. 6 and No. 9 
and No. 10 that make sense in my judgment.
    But I would like to conclude, Chairman Akaka, Senator 
Voinovich, and Members of the Subcommittee, by saying that the 
primary message I give to you today is to emphasize that for a 
truly effective public diplomacy effort, America must return 
to--and I say return to, and then reinforce and remind people 
throughout the world by example what they have especially 
admired about our country and our people. That won't be 
accomplished by an improved governmental relations campaign, by 
governmental reorganization, or only by adding more State 
Department public diplomacy officers in our embassies or 
consulates or Washington, DC. However, greater good will, 
respect, credibility, and support for our country can be 
regained. Changes in policies and emphases, a smarter variety 
of public diplomacy, and perhaps some governmental 
reorganization are only part of the answer.
    The primary orientation of your effort must be to remind 
people abroad and reinforce by example and our direct 
experience what they and their leaders traditionally have liked 
and admired about America and our country. We have done it well 
in the past. We can and we must do it again.
    Thank you very much for this opportunity.
    Senator Voinovich [presiding]. Thanks very much. Ms. 
Bagley.

TESTIMONY OF AMBASSADOR ELIZABETH F. BAGLEY,\1\ VICE CHAIRMAN, 
          U.S. ADVISORY COMMISSION ON PUBLIC DIPLOMACY

    Ms. Bagley. Thank you, Senator Voinovich. Thank you for the 
opportunity to appear before you at this hearing on reforming 
the public diplomacy bureaucracy. I am honored to represent the 
U.S. Advisory Commission on Public Diplomacy this afternoon and 
to brief the Subcommittee on our 2008 report entitled, 
``Getting the People Part Right: A Report on the Human 
Resources Dimension of U.S. Public Diplomacy.''
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bagley appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    At the outset, Commission Chairman William Hybl and I would 
like to ask the Chairman's permission to enter the entirety of 
our report in the record.\2\
---------------------------------------------------------------------------
    \2\ The report submitted by Ms. Bagley referred to above appears in 
the Appendix on page 149.
---------------------------------------------------------------------------
    Senator Voinovich. Without objection.
    Ms. Bagley. Thank you. Just over a year ago, the Commission 
reviewed the extensive recent literature on U.S. public 
diplomacy and determined that few, if any, observers had ever 
sought to look under the hood and study the impact of internal 
human resource practices and structures on our Nation's efforts 
to communicate with foreign publics. We decided to explore this 
basket of issues because, in the final analysis, as Congressman 
Bereuter just said, people are the key to success of our 
Nation's public diplomacy.
    Over a one-year period, the Commission met with scores of 
State Department officials and outside experts on Public 
Diplomacy (PD) human resources issues, and we learned a great 
deal in the process. Our 2008 report contains our findings and 
recommendations. In this short statement, I would like to 
highlight our key conclusions. Later, I will be happy to 
elaborate, if necessary, and answer any questions the Members 
of the Subcommittee might have.
    In sum, Mr. Chairman, we found that the State Department 
recruits smart people, but not necessarily the right people for 
the PD career track; tests candidates on the wrong knowledge 
sets; trains its officers in the wrong skills; and evaluates 
those officers mostly on the wrong tasks.
    In terms of personnel structures, State has a PD 
bureaucracy in Washington that hasn't been critically examined 
since the 1999 merger and that may or may not be functioning 
optimally. Its overseas public affairs officers are spending 
the majority of their time administering rather than 
communicating with foreign publics. And meaningful integration 
of public diplomacy into State Department decision making and 
staffing remains elusive. In short, Mr. Chairman, we are not 
getting the people part right. Let me now take up each of these 
points in a little more detail.
    On recruitment, very simply, the Department of State makes 
no special effort to recruit individuals into the public 
diplomacy, or PD, career track who would bring experience or 
skills specifically relevant to the work of communicating with 
and influencing foreign publics. No serious Presidential or 
Congressional campaign or private sector company would hire 
communications personnel who have no background in 
communications, but to a large degree, that is exactly what the 
U.S. Government is doing and we need to change that.
    Turning to the Foreign Service examination process, we 
found that the Foreign Service Officer Test and Oral Assessment 
do not specifically test for public diplomacy instincts and 
communications skills. Since we neither recruit for nor test 
for these skills, it is thus possible for candidates to enter 
the PD career track, and for that matter the other four Foreign 
Service career tracks, without having any documented 
proficiency in core PD-related skills. This is problematic. The 
Commission believes we need to modify the exam, particularly 
the Oral Assessment, to include more substantive PD content.
    In terms of public diplomacy training, though there have 
already clearly been some improvements in recent years, a 
number of conspicuous and serious blind spots persist. For one, 
we make virtually no effort to train our PD officers in either 
the science of persuasive communication or the nuts and bolts 
of how to craft and run sophisticated message campaigns. The 
Commission believes we need to rectify this. We would like to 
see more substantive PD offerings at the State Department's 
Foreign Service Institute, including a rigorous 9-month course 
analogous to the highly regarded one currently offered to 
economic officers.
    With respect to the State Department's Employee Evaluation 
Report (EER) form, the essential problem is that it lacks a 
section specifically devoted to PD outreach and thus contains 
no inherent requirement that State Department employees 
actually engage in such outreach. Until it does, PD officers 
overseas will continue to spend the overwhelming majority of 
their time behind their desks administering rather than out 
actually directly engaging with foreign publics. The Commission 
wants to see outreach built into the EER form, and we also want 
to see at least one substantive PD communication task built 
into the work requirements of every PD offices in the field. A 
one-line change in the EER form of the type we have proposed 
could result in thousands more outreach events per year than we 
are seeing now. Now is the time to put direct outreach at the 
center of American public diplomacy, right where the current 
and previous Secretaries of State have said they believe it 
should be.
    Let me now turn to the public diplomacy area offices. At 
present, the mechanism by which public diplomacy considerations 
are ostensibly brought into State Department policymaking is 
the PD area office, about which you already talked with the 
previous panel. This is a self-standing office within the six 
regional bureaus. The Commission looked at this structure and 
concluded that though PD now has a higher profile within the 
State Department than it did some years ago, the jury is still 
out as to whether that higher profile has been translated into 
appreciable services and policy outcomes. The current 
bureaucratic arrangement is anomalous in two ways. First, 
Washington-based PD officials take policy direction, as we 
talked about before, not from the official to whom they 
nominally report, and that is the Under Secretary for Political 
Affairs, but rather from an official to whom they do not 
formally report, namely the Under Secretary for Public 
Diplomacy and Public Affairs. Second, PD is the only 
substantive function not permanently represented on the county 
affairs desk, the focus of Department policymaking. We think it 
is time to revisit the current arrangement to see if it is 
working as it should.
    With regard to the role of public affairs officers (PAOs), 
at post, particularly at large posts, the Commission was 
surprised to find that notwithstanding the job title, most PAO 
responsibilities were inwardly, not outwardly, oriented. In 
short, our PAOs are essentially administrators, not 
communicators. The Commission recognizes that program 
administration is an important component of public diplomacy 
that will always be a part of the job. Nonetheless, we would 
like to see the Department take a critical look at the PAO 
position, particularly at large posts, to see if these senior 
officers are playing the role they ought to be playing and if 
this expensive managerial layer is cost effective and adding 
value.
    Finally, a few words about the integration of public 
diplomacy officers into State Department staffing. The stated 
goal of the 1999 merger of the USIA into the State Department 
was to integrate PD considerations and PD personnel more fully 
into the mainstream of State Department planning and policy 
making. The Commission has found that this integration remains 
largely elusive, and concomitantly that PD officers continue to 
be significantly underrepresented in the ranks of the 
Department's senior management. As we put in the report, ``the 
PD career track is no longer `separate,' but it certainly is 
not yet `equal.' '' If the Department is to attract and retain 
first-rate PD officers, then it needs to demonstrate that these 
officers will be regarded as capable of holding senior 
Department positions.
    Let me conclude. Getting the people part right can go a 
long way toward enhancing the overall effectiveness of 
America's outreach to the world. As our report suggests, there 
is much work to be done. That said, most of the needed fixes 
are feasible. With some political and bureaucratic, and perhaps 
some Congressional attention--they can be made. We certainly 
hope they will be.
    Mr. Chairman, thank you very much again for this 
opportunity. I look forward to responding to any questions you 
may have.
    Senator Voinovich. Thank you, Ms. Bagley. Mr. Chaplin.

    TESTIMONY OF STEPHEN M. CHAPLIN,\1\ SENIOR ADVISOR, THE 
                 AMERICAN ACADEMY OF DIPLOMACY

    Mr. Chaplin. Senator Voinovich, thank you for the 
opportunity to appear here today to testify on what can be done 
to improve public diplomacy's performance in achieving foreign 
policy objectives. I spent a 32-year career with USIA, was a 
member of the Senior Foreign Service, and acted as a member of 
the steering committee at USIA on the consolidation of the 
Department of State.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chaplin appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    Today, I represent the American Academy of Diplomacy and 
the Stimson Center, which together have produced a new report 
entitled, ``The Foreign Affairs Budget for the Future: Fixing 
the Crisis in Diplomatic Readiness.'' I served on both the 
advisory group and the working group that prepared the report, 
which will be issued next month.\2\
---------------------------------------------------------------------------
    \2\ The report submitted by Mr. Chaplin appears in the Appendix on 
page 190.
---------------------------------------------------------------------------
    I think the best description of why this report is 
necessary are some words in the foreword from Ambassadors Ron 
Neumann, Thomas Pickering, Thomas Boyat of the Academy, and 
Ellen Laipson, President of Stimson, ``The study is intended to 
provide solutions for and stimulate a needed conversation about 
the urgent needs to provide the necessary funding for our 
Nation's foreign policies. We need more diplomats, foreign 
assistance professionals, and public diplomacy experts to 
achieve our national objectives and fulfill our international 
obligations. This study offers a path forward, identifying 
responsible and achievable ways to meet the Nation's needs. It 
is our hope that the Congress and the next Administration will 
use this study to build the right foreign affairs budget for 
the future.''
    Now, many fine studies have been published in recent years 
that have recommended institutional reorganization of foreign 
affairs agencies, offered guidance on how U.S. foreign policy 
should be conducted. This report is different. Its purpose is 
straightforward: Determine what the Secretary of State requires 
in terms of personnel and program funding to successfully 
achieve American foreign policy objectives. Based on informed 
budgetary and manpower analyses, the Academy and Stimson report 
provide specific staffing and cost recommendations.
    My colleague, Stanley Silverman, a longtime USIA 
Controller, and I focused on public diplomacy. This is what we 
found. Despite recent increases, public diplomacy in the State 
Department is understaffed and underfunded. The fiscal year 
2008 PD budget is $859 million. The PD's current staff of 1,331 
Americans is 24 percent less than a comparable figure of 1,742 
in 1986. According to State data, public diplomacy in early 
fiscal year 2008 had a 13 percent Foreign Service vacancy rate. 
That is equivalent to 90 man years.
    To have a reasonable chance to accomplish its objectives, 
PD needs to cover an employment shortfall, establish additional 
positions, obtain greater program funding, and significantly 
expand training. We believe that our recommendations for the 
2010-2014 time frame will significantly improve PD's 
capability.
    We are all familiar with international public opinion 
surveys showing extensive dissatisfaction with many U.S. global 
policies and the disagreement of U.S. allies with certain U.S. 
decisions. However, these survey results don't fully convey 
foreign attitudes toward the United States. More than any 
Nation, the United States is looked to for ideas, innovation, 
and opportunity. In much of the world, the United States is 
viewed as a society that recognizes individual initiative and 
rewards talent. Given these factors, public diplomacy, properly 
funded and staffed, can make a difference.
    Before I mention our specific recommendations, I want to 
stress that PD field officers still successfully deal in 
traditional programs such as exchanges, lectures, media 
placement, and cultural events. However, in 2008 and beyond, 
they and the Washington support units must reach out to broader 
audiences to what I would call the Internet generation of 20- 
to 40-year-olds with credible information, and in many 
instances, entertaining Internet media, which are essential to 
reach these audiences.
    Whether it is traditional programming or Internet-based 
programming, public diplomacy's success results from a long-
term commitment of staff effort and funding. Our report 
recommendations cover exchanges, advocacy of U.S. foreign 
policies and informational and cultural programs about American 
society, institutions, and values.
    Briefly, they include: Increase permanent American staff by 
487 and locally-employed staff by 369; increase academic 
exchanges over this 5-year period by 100 percent, international 
visitor grants for rising foreign leaders by 50 percent, and 
youth exchanges by 25 percent; expand the capacity of PD 
English and foreign language advocacy websites aimed at 
experts, young professionals, and students, and hire additional 
specialists in website design and program content; establish 40 
American cultural centers to broaden the daily U.S. worldwide 
cultural presence where security conditions permit; reengage 
the U.S. Binational Center network in Latin America of over 100 
centers and 100,000 members who desire closer ties with the 
United States; expand other programs, particularly overseas 
staff and operations, to increase PD effectiveness.
    In total, from fiscal year 2010 to fiscal year 2014, the 
staff increases we recommend will cost $155.2 million and 
program activities $455.2 million. Overall funding increases 
will total $610.4 million in 2014.
    Finally, while training recommendations are located in 
another section of the report, they call for substantially 
increased training opportunities for PD personnel. PD Foreign 
Service officers, in particular, need more extensive training 
in foreign languages and area studies, technology applications, 
public speaking, and resources management.
    I will be very happy to respond to your questions. Thank 
you.
    Senator Voinovich. Thank you, Mr. Chaplin. Ms. Freiberg.

      TESTIMONY OF RONNA A. FREIBERG,\1\ FORMER DIRECTOR, 
 CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS, U.S. INFORMATION 
                             AGENCY

    Ms. Freiberg. Thank you, Senator Voinovich. As a veteran of 
USIA, I have a continuing interest in the effectiveness of the 
Nation's public diplomacy and our ability to adapt it to the 
demands of the 21st Century. My remarks today reflect my own 
views and not those of any organization.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Freiberg appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    It is no secret that our public diplomacy apparatus needs 
reform. Creating a consistent and coherent outreach to foreign 
publics must be a high priority for the next Administration. In 
the past few years, as others in this room have said, we have 
been flooded with reports from numerous high-level task forces 
studying what should be done and to reinvigorate and to 
strengthen public diplomacy. The report that Mr. Chaplin just 
described is the newest addition and it contains some valuable 
information as well as valuable recommendations.
    Some of the reports have also suggested creation of an 
independent or quasi-governmental organization to perform all 
or part of this function. Although the ideas have merit, it is 
still unclear to me how a new entity would interface with the 
State Department and how it would operate in the field. For 
this reason, I have focused my testimony on improving State 
Department's current public diplomacy organization and 
operations.
    In his book on soft power, Joe Nye described public 
diplomacy as not only conveying information and selling a 
positive image, but also building long-term relationships that 
create an enabling environment for government policies. The 
consolidation of USIA into the State Department in 1999 has not 
made it any easier, I think, to sell a positive image or to 
build long-term relationships. The merger, in my view, has been 
less than successful for public diplomacy, which continues to 
be plagued with underfunding, lack of interagency coordination, 
a culture that still undervalues and marginalizes it, and the 
encumbrances of a large bureaucracy.
    Since this is the situation that the next President will 
inherit, I don't advocate recreating the old USIA. The question 
is, how can we make public diplomacy better? I have seven 
recommendations for reform, and since some of these have been 
mentioned by other witnesses, I will not go into great detail 
in these few minutes.
    First, we do need to clarify and strengthen the role of the 
Under Secretary. We have talked about the sort of bifurcated 
situation that now exists with personnel in the regional 
offices and in the field reporting to regional Assistant 
Secretaries and to the Undersecretary for Political Affairs. I 
believe that the regional PD offices need to be able to report 
directly to the Under Secretary for Public Diplomacy. Or, we 
need to create a bureau for field operations. I can go into 
that in the question period if you would like.
    Second, we need to increase public diplomacy resources. 
Better minds than my own, including that of Secretary Gates and 
my colleagues at this table, have made the same point, that if 
we are serious about our commitment to public diplomacy, we 
must find the resources to expand it in a number of areas, some 
of which are detailed in my written testimony. Among those 
options, I would focus on expanding exchanges, augmenting the 
size and technology of the Bureau of International Information 
Programs, and restoring some of the positions and facilities in 
the field that were lost in the 1990s, such as American 
Centers.
    Third, we have to, I think, restore the country plan. Prior 
to the consolidation, area offices developed detailed country 
plans which defined communication strategies and set objectives 
for overseas programs. The country plan would bring additional 
coherence to the policymaking process and encourage greater 
coordination between regional bureaus and PD field operations.
    Fourth, develop a plan for private sector engagement. That 
theme has been repeated on numerous occasions recently and 
during the last hour-and-a-half. Several of our witnesses, I 
think, agree on that point. The current State Department Office 
of Public Diplomacy does have an Office of Private Sector 
Outreach. That office should produce a detailed strategy for 
the next Administration on how to leverage private sector and 
nonprofit resources and expertise in the coming years. If we 
opt to create an outside organization for public diplomacy, one 
of its central objectives should be to encourage and better 
utilize this private sector input.
    Fifth, bring coherence to the management of interagency 
coordination. Too many departments and agencies, Defense and 
USAID, just to name two of them, engage in public diplomacy or 
strategic communications activities, resulting in inconsistent 
messages and lack of accountability. The next Administration 
should inventory these activities government-wide, consider 
consolidating some of them, and at a minimum, decide at what 
level and how to make them work together. That includes the 
possibility of elevating the NSC Policy Coordinating Committee 
on Strategic Communication and Public Diplomacy to a body on a 
par with the NSC, the HSC, and the NEC at the White House.
    Sixth, strike a balance between security needs and public 
access to programs abroad. Current security arrangements at 
posts, though necessary, in many cases hinder efforts by public 
diplomacy officers to interact and engage with both media and 
citizen groups at post.
    And finally, this, I believe, is the most important thing 
we can do moving into a new Administration, and that is we must 
launch a major government-wide international education effort. 
Both our national security and our international 
competitiveness demand it. It will require interagency and 
certainly Congressional support. Such a campaign would have 
three elements.
    First, attract and welcome more international students to 
this country. The university environment fosters interaction 
with our values, our political system, and our citizenry. 
Further refinements in visa policy and cooperation with 
institutions of higher learning are needed. Other nations have 
created comprehensive national strategies to attract students, 
and we are competing with those other nations. Our lack of such 
a strategy works to our detriment.
    Second, find ways to make our own students more aware of 
the world beyond our borders by increasing the number and 
diversity of students who have the opportunity as 
undergraduates to study abroad and the diversity of locations 
available to them, particularly in the developing world and 
emerging economies. Study abroad should not be an opportunity 
limilited to the wealthy.
    The third element of an international educational strategy, 
is to expand funding for international educational exchange 
programs, beyond the increases of the past 5 years, which have 
gone largely to the Middle East. Participants and alumni of 
these programs are vital public diplomacy assets.
    In conclusion, Mr. Chairman, our success in foreign policy 
depends on our ability to engage and influence foreign publics 
through the power of our values, our institutions, and our 
national character. It depends also on understanding our 
audiences and building the kinds of relationships that outlive 
the policies of any one Administration and sustain us during 
times of international crisis.
    Yes, it is about message, but it is also about people-to-
people programs. Yes, it is about mastering communications 
techniques and state-of-the-technologies. But it is also about 
translating our Nation's positive attributes into realities 
that others can experience. Too often, people associate public 
diplomacy with public relations. That is only a piece of the 
puzzle. The art of salesmanship is transient. The art of 
fostering understanding and good will becomes the work of many 
generations.
    Thank you. I am happy to answer questions.
    Senator Voinovich. Thank you, Ms. Freiberg. Ms. Schuker.

TESTIMONY OF JILL A. SCHUKER,\1\ FELLOW, UNIVERSITY OF SOUTHERN 
            CALIFORNIA, CENTER FOR PUBLIC DIPLOMACY

    Ms. Schuker. Thank you very much. Senator Voinovich, Mr. 
Chairman, and the Subcommittee, thank you for the opportunity 
to address you today on the important organizational challenges 
facing public diplomacy in this new century.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Schuker appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    Through your hearings on smart power, this Subcommittee has 
been in the forefront of forward thinking on this issue and 
capturing the urgency and attention it deserves. Twenty-first 
Century U.S. public diplomacy is at a crossroads of both 
challenge and opportunity and it will be a centerpiece issue 
for the next Administration taking office in 2009. As the Smart 
Power report concluded, public diplomacy is indeed a companion 
for effective U.S. foreign policy. It is an opportunity, if 
effectively shaped and executed, to create new levers of 
influence that will ultimately make better use of hard power 
when needed and provide diplomatic alternatives to mutual 
threats and challenges.
    Simply put, public diplomacy must be intimately involved in 
effectively identifying and promoting our national interests 
and informing smart power policy. But public diplomacy problems 
lie in both expectations and structure.
    First, the United States is expected to lead by example, as 
you have said, and this becomes a key measurement for effective 
public diplomacy abroad. Poll after poll tells us that we are 
at a low point in moral authority globally.
    Second, 10 years ago, mistakes were made in the rush of 
``jerry-built'' architecture for public diplomacy that, in my 
view, in part, threw the baby out with the bathwater, leaving 
gaps in our public diplomacy readiness and effectiveness. Many 
of these challenges have been mentioned. The multitude of 
serious public diplomacy reports over the last years share the 
same main message of change, and that change is needed both 
structurally as well as for the role of public diplomacy and 
how it plays in the policy process.
    In addition to the report that was mentioned that is about 
to come out, a new one is about to emerge, I think on October 
1, from the Brookings Institution that was funded also by 
Congress, which I think will have some very interesting things 
to say.
    Others testifying here today as inside-government public 
diplomacy practitioners have spoken more expertly and directly 
about the viability of specific present office structures, 
personnel, and portfolios, but let me enumerate quickly my 
thoughts given my own expertise both inside and outside of 
government.
    First, while U.S. public diplomacy clearly is directed to a 
global audience, effective public diplomacy must begin at home. 
This demands a more aware and better educated U.S. public, 
ensuring that at every level of our society and government we 
are structurally geared to preparing ourselves for the 21st 
Century challenges, such as shifting demographics.
    Targeted public diplomacy and the training of our 
professional civil service in all departments must be given an 
integral place so that all sectors, be it health, housing, the 
arts, sciences, etc., have both accountability and an awareness 
and an expertise in public diplomacy. The recent Washington 
Post article highlighting a new intelligence forecast looking 
to 2025 reportedly being prepared for the next President 
predicts that our increasingly competitive flat world will 
enable the United States to remain preeminent, but ``its 
dominance will be relatively diminished because of the rise of 
everyone else.'' Public diplomacy needs to prepare for and 
navigate this successfully.
    Overall, public diplomacy needs recognition of the 
professionalism of the public diplomacy function, the 
independence of its work, the quality professional corps, and 
deeper resource and financial support that is needed, and the 
reality that effective public diplomacy means long-term 
planning, outreach, and engagement, which is now missing.
    The dismantlement of USIA, which I am not asking to have 
reconstituted, but the dismantlement of USIA and its transfer 
into the Department of State continues to have repercussions. 
This transfer caused serious disruption with the departure of 
many professionals and the resistance by and to a new culture, 
whatever the good intent. Lessons should be learned from this 
experience about how to reinvent government more successfully. 
The President sets the tone and agenda, but State runs the 
function.
    Day in and day out, it is the cadre of professionals who 
need and must have adequate resource support, funding, 
training, and respect, which is not always there. An 
appreciation by the Foreign Service of public diplomats' 
expertise is too often taken for granted by regional bureaus, 
and in the conflict of shifting directives from the regional 
bureaus, the ambassador if abroad, and the Under Secretary. 
This must be better rationalized and the independent public 
diplomacy role respected.
    It is also important to recognize that the role of the 
public diplomat is intrinsically, in my view, separate from 
that of a spokesman or press officer, and this has gotten lost 
in translation. Public diplomacy is definitionally a two-way 
street, seeking to reach out and dialogue with the street 
beyond traditional networks of officialdom, the basic 
diplomatic focus of the State Department. This is actually one 
of the oddities of public diplomacy being based at State.
    The seige mentality that has overtaken much of our 
diplomatic in-country outreach since September 11, 2001, 
clearly also has hurt the effectiveness of public diplomacy. So 
many of our embassies have become armed camps, cut off from the 
countries in which they reside and their publics. How to find a 
better balance between security and contact is a major 
challenge that needs to be addressed, and this includes visa 
reform, as well, which you have also mentioned, which would 
enable better reverse public diplomacy in terms of students and 
cultural exchanges.
    Public-private partnerships also are very important to 
optimize effective public diplomacy engagement. They need to be 
more aggressively and successfully pursued to embrace the reach 
and resources they can provide outside of government, impacting 
public diplomacy in ways that cannot be successfully 
accomplished by government alone.
    Some of the dollars, which is in my testimony, that the 
private sector has, for example, Citigroup's budget in 2007 in 
100 countries was $81.7 billion. In 180 countries, this was 
nine times the amount that the State Department is dealing 
within its entire budget.
    We also need better training and mastery of the new media 
by our public diplomats. These provide a different way to 
social network and inform citizens of other countries about 
United States' interest and values. This ranges from the 
Internet to blogging to all modern public diplomacy vehicles 
which, in addition to traditional skills, we need to encourage 
new information, technology-savvy public diplomats.
    Priority must also be attached to the nomination and 
confirmation process for the Under Secretary for Public 
Diplomacy. The short-tenured revolving door of this particular 
job has swung often since the reorganization of the late 1990s 
and added to its woes. The reasons need to be assessed by this 
Subcommittee. Public diplomacy's troops have not had the full, 
consistent, internal integration and direction needed and 
required for full success.
    Specific programs face problems, as well, including Alhurra 
and even Radio Sawa and programs being run through the 
Broadcasting Board of Governors. Too often, they are viewed as 
propagandistic rather than as hard news or providing an honest 
broker perspective. If we are going to put money and muscle 
into broadcasting, then we should look at what has worked for 
us--Voice of America, for example--and not diminish or undercut 
or dilute these structures. Does cutting out VOA to India, as 
has been done recently, I gather, or cutting it back in former 
Soviet republics really make sense for our long-term smart 
power interests? Are we letting specific short-term policy and 
low funding run public diplomacy before public diplomacy can do 
the job? This is unproductive and a challenge for Congressional 
consideration.
    We also need to bring into government public diplomacy 
talent we have either been ignoring or discouraging from 
outside of government, including skilled immigrant Americans 
who have language skills and geographical and cultural 
knowledge. One of our country's strengths is our diversity and 
it is one of the most identifiable ways to demonstrate tangibly 
abroad what we mean when we say public diplomacy begins at 
home.
    On funding, which has already been mentioned, funding is 
minuscule relative to funding for similar activities at the 
Defense Department, which indeed both Joe Biden recently, as 
the Chairman of the Senate Foreign Relations Committee, as well 
as Secretary of Defense Bob Gates have mentioned, and those 
have been addressed already in testimony.
    Two final points quickly about the structure of public 
diplomacy. Both our Presidential candidates have mentioned the 
importance of ideas such as AmeriCorps, America's Voice 
Initiative. I think these would be very useful.
    Last, and I mention this in my testimony, I would recommend 
serious consideration by the next President of having a senior 
advisor in the White House responsible to the President with 
responsibility for public diplomacy, sending an immediate 
signal abroad. This would not be the running of day-to-day 
public diplomacy, but it would add a dimension that I explain 
in some detail in the testimony. Thank you very much.
    Senator Voinovich. Thank you.
    The American Academy of Diplomacy, Mr. Chaplin, has done, I 
think, a pretty good job of making some recommendations. It was 
interesting, I was over at John Kerry's house and there was a 
presentation between Brzezinski and Brent Scowcroft about 
bipartisan foreign policy and I asked the question, what about 
the human resources that you are going to need to implement the 
policy, and not very much in the book about it?
    I think one of our big problems here is that, at least on 
this side of the government, there is not enough appreciation 
about the fact that you need the people in place to get the job 
done. So the real challenge, I think, is if we are going to 
change this around and do a better job of public diplomacy, we 
are going to have to make the commitment in terms of the 
resources that are necessary, also to try and make sure that we 
get the right individual in, as I mentioned. Some of you were 
here for the previous panel, but what is the job description 
for the individual that ought to head up this part of the State 
Department?
    It gets back also to the issue of even the State Department 
in terms of management. I think that Dick Armitage and Colin 
Powell did a pretty good job of stirring some esprit de corps 
back into the State Department. Condi had lots of things to do. 
In my opinion, Bob Zellick should never have gotten the job. 
That wasn't the job for him. So having the right people in the 
right places at the right times makes a big difference.
    I think all of you in your respective roles should keep 
working on trying to get this across to whichever candidate you 
are supporting, or your organization can make that available to 
them.
    The big issue, again, is the funding. Mr. Bereuter, you 
spent a lot of time here. Now you are with the Asia Foundation. 
You have also headed up the NATO Interparliamentary Group. Do 
you believe that the fact that we are kind of taking care of 
the rest of the world in terms of our military prowess, and if 
you look at the budgets, that of the NATO nations that they are 
supposed to be coming up with their 2 percent, they don't come 
up with that money at all. We are doing it for them. As a 
result of that, I think we are pouring so much more money into 
defense where we should be putting it more into the public 
diplomacy area.
    I would like all of your observations. Which countries are 
doing a better job than we are in public diplomacy? Are there 
any benchmarks out there that we can look to?
    Mr. Bereuter. Thank you, Senator Voinovich, for that 
question. Well, I have always thought that, unfortunately, we 
seem to have to do the heavy lifting, and for many parts of the 
world, we come across as the heavy in that respect. I have 
always thought it would be nice to be, for example, a 
Scandinavian country and focus most of your resources on soft 
power and present this image to the world.
    But we do have some advantages yet because people around 
the world still admire our people, our country, our system, 
when we live up to the principles and values, so we have those 
advantages. We have shown in the past we can do it (public 
diplomacy) very well.
    I will come back to resources, if I may, in just a second. 
The number of public diplomacy officers we have today is not an 
insignificant number. It has been increased substantially. The 
problem, in my judgment, is that they spend only a small amount 
of their time really on that role, and you heard from a very 
distinguished member of the Foreign Service, Ambassador Delisi, 
what I thought was the fundamental problem, and the fundamental 
problem is they are still talking about resources as if our 
public diplomacy officers must have this incredible variety of 
language training and other skills--highly desirable, no doubt 
about it, but it is not their responsibility, in my judgment, 
nor the effective way to regard themselves as responsible for 
the direct delivery of public diplomacy. They have to 
understand how to manage the resources we have in the American 
people and the experience that we can give the foreign public 
here and abroad. That magnifies our resources tremendously if 
they have that attitude.
    But to believe that public servants, people in our 
government primarily are responsible for the direct delivery of 
public diplomacy fails to take advantage of the resources and 
the expertise we have. So that is my point. I guess I have made 
it before, but we have those advantages. We took advantage of 
them in the past when we had USIA, to a greater extent.
    Let us take a look at public libraries today, U.S. 
libraries abroad. There are very few today. They are behind 
security. They are inaccessible, largely. Our American Corners 
facilities too are few and far between. We deliver in the Asia 
Foundation over a million books a year abroad, all donated by 
our American publishers, and they are located in some 43,000 
locations in Asia. We get some USAID assistance to help us move 
them across the ocean, but we certainly, could use more 
resources. This is a way of taking the American experience 
through books and materials to an extraordinary number of 
people.
    Muhammad Yunus, for example, a Nobel Prize winner, said, 
``I first had my look at America, my experience, by looking at 
books that you delivered to me in Bangladesh when I was a 
boy.'' So within the problems of security we have today with 
our embassies, we need to look at other alternatives in that 
specific area, for example.
    Senator Voinovich. Ms. Bagley, you mentioned that from your 
Commission's point of view, that we are recruiting the wrong 
kind of people. What kind of people should we be going after 
and where do we find them?
    Ms. Bagley. I think, Senator, it goes back to what Mr. 
Bereuter was saying, and others about the kinds of people that 
we want to have and those are those who have communications 
skills. You can worry about management. You can talk about 
managing your programs, which is the IV Program, the Fulbright 
programs, all the wonderful cultural and exchange programs, 
which I do agree should probably be increased, but there is so 
much more that a PAO should be able to do overseas.
    I think the kind of person you want is someone who has 
communications skills already, who understands how to 
communicate with the public, who understands how to look at 
polling and use that as an expression of whatever the sentiment 
is in that particular country. That is on the overseas part.
    At the State Department level, and that goes back to the 
kind of holistic approach which the Commission has endorsed, 
and that is to start with the testing, we have two tests. The 
Foreign Service exam does not test to any communication skills 
or any kind of strength that would be natural to the PD career 
track.
    Senator Voinovich. Well, you could look for people that do 
have communications. There are great schools----
    Ms. Bagley. I know. Exactly.
    Senator Voinovich. My alma mater has the Scripps School and 
they do a bang-up job at producing people.
    I think maybe the State Department would be saying there 
are some folks there that could be--I mean, it is amazing to 
me. My chief of staff, when I was governor my last 2 years, was 
out of communications, a great manager, but he knew how to 
communicate. I mean, that seems it is a no-brainer, I would 
say.
    Ms. Bagley. It is not rocket science, no, and that is 
something they don't really do yet at this point and I think 
that was one of our big recommendations, was that with the 
Foreign Service Exam, especially the Oral Assessment, just to 
begin with communications. When they talk to a Foreign Service 
applicant, they never ask them if they have ever had 
communications training. They don't test them on their speech 
making or before a board to talk about press inquiries. There 
are a lot of things you could test them on that they are not 
tested. So we are hoping--and that was one of our 
recommendations--that just to begin with, the testing should 
require some sort of communication ability for the PD officer, 
in particular.
    Senator Voinovich. We are getting those people in, but 
today, we have a lot of political appointees that have gone in 
and there is no requirement that they speak the language of the 
country in which they are going into. I have seen the 
professionals and I have seen the appointees, and some of them 
are really great and some of them are----
    Ms. Bagley. Right. I know.
    Senator Voinovich. I mean, these are the people 
representing the United States of America. I think more careful 
work should be done in deciding who we are going to send 
overseas to get the job done for those political appointees.
    Mr. Chaplin, I haven't finished the report that the Academy 
has done, but I have heard, and I keep hearing, that this 
exchange of individuals, of sending our people overseas and 
bringing people here to this country has been something that 
has been very good for us, and we see evidence of that over and 
over and over again. In the report, how much emphasis was 
placed on that? On other words, if you have resources, you can 
bring people in the State Department. You have got X-number of 
dollars and you allocate resources. If this is something that 
is really good but is the kind of thing that doesn't pay 
dividends like that, it is one of those things that pays 
dividends over----
    Mr. Chaplin. Long term----
    Senator Voinovich [continuing]. Fulbrights and so forth, I 
can't recall, did you get into that?
    Mr. Chaplin. Yes, sir, Senator. I think you are right. 
First of all, the investment in exchanges is a long-term 
investment, and you just have to wait and see the results. But 
if you choose people wisely based on their competence and the 
abilities you think they have, it can pay off in lots of ways.
    We recommended on two major exchange programs. On the 
Fulbright Program and programs affiliated with Fulbright, we 
recommended a 100 percent increase, and that would bring 
several thousand people more. I think a couple of points on 
Fulbright--it has a proven track record, but foreign 
governments also contribute a part to it and that has been one 
of the geniuses, I think, of a program as designed by Senator 
Fulbright. They have a stake in this and so they want to be 
sure they send qualified people.
    Second, the fact that you are bringing over a number of 
either students or scholars from other countries who have not 
had experience in the United States previously, and I think 
this opens their eyes in many ways. They learn about the values 
of American people as well as the fact that we are a consumer 
society and all the other things we can show off, and that is 
important because they take that back with them. And I think 
during times when we may have difficulties with certain 
countries, there is still a reservoir of good will towards the 
United States in these particular groups that can resurface 
once things improve.
    So we think that well-organized and well-executed programs 
can pay dividends. The International Visitor Program, the other 
major program, and that is spotting leaders as they are rising. 
It was pointed out earlier today that 277 former heads of state 
have gone through that program, but also writers, labor 
leaders, economists, journalists, a lot have gone through, and 
this is an investment. A committee within the embassy which 
selects the people they think are going to really rise and be 
important in that society, and that has paid off, as well. And 
again, you are talking about these are kind of friends for 
life. They may be critical of us on individual policies, but 
their basic feeling about the United States is a positive one.
    So I think the more that we can do on that. There obviously 
are private sector programs which are also very effective, 
university-to-university programs, other student exchanges. The 
more of that can be done, when people see America firsthand and 
when they deal with Americans firsthand, those are kind of the 
major advertisements I think we have for our society.
    Senator Voinovich. One of the observations is that, too, is 
using our private organizations in the country more fully to 
try to figure out how we can integrate them into this whole 
process, the NGOs, what you are doing, Mr. Bereuter, and your 
organization. There are others out there--a better 
coordination.
    I am going to finish on this, Senator Akaka. One of the 
areas that I think we don't do a very good job on, and it is 
something that carries over from my days when I ran for 
president of the student body at Ohio University, and I engaged 
a guy named Mong Sah Min, who was from Burma, to be my campaign 
manager with the international students because they had a 
right to vote, and my observation was is that these students, 
and I don't know if it is the case or not, maybe from your 
observations getting around to universities, is they come to 
the universities and they all hang out together and there is no 
effort to try and get them out or get people at the university 
to spend time with them.
    I got elected and Mong set it up and we had these folks 
going out to fraternities and sororities and to the dormitories 
to have dinner and to talk about their countries and answer 
questions and really got something going there. And I just 
thought, I just wonder how many universities today have the 
same old thing. They all get together, and how often do they 
intermingle with the other students there, and are the students 
there taking advantage of this wonderful resource to get to 
know somebody from another country, or do they just go on with 
their own sorority and fraternity or dormitory work.
    Mr. Chaplin. In my case, just from anecdotal experience, I 
think you are probably right. Times have changed in that. But 
universities which can organize host family activities and 
others to try to get people engaged often do pay off, but it 
takes some effort by the university, I think, to organize these 
outings and bringing them closer with American families.
    Senator Voinovich. Well, I just think that I am going to 
really look into it to find out what is really being done. I 
mean, we have in Cleveland the international organization. My 
folks used to bring in kids, adults from the School of Social 
Work at Case Western Reserve and they would stay with us for a 
month and they got a chance to get to know a family and we got 
to know them. I would think there is a tremendous opportunity 
here if somebody really started to pay attention to it and 
probably could do it without a whole lot of money.
    Mr. Chaplin. I want to just mention one thing, sir. The 
proposals that we recommend that total $610 million, $410 
million are devoted to exchanges. We either need the resources 
to bring people over to the United States or we need the public 
diplomacy infrastructure to support the programs abroad.
    Senator Voinovich. Thank you. Senator Akaka, I have taken 
up too much time.
    Senator Akaka [presiding]. Thank you very much, Senator 
Voinovich.
    I want to say at the outset thank you very much, Mr. 
Bereuter, for this book, and to mention that on pages 52 and 
53, you have a statement there pointing out the blunder of 
reducing USIA and the need to come back with better programs.
    I just want to say that we will be facing four votes that 
were supposed to happen at 4:30, but it hasn't yet, and that I 
intend to adjourn this because it will take about one hour for 
us to do that.
    I have questions that I am going to submit for all of you 
to respond to, but I have two questions, one to Mr. Bereuter, 
and this in particular is about the U.S. Marketing College. How 
do you feel about the U.S. Marketing College, the State 
Department's new partnership with the private sector?
    Mr. Bereuter. Thank you, Senator Akaka. I am happy to 
deliver that report to you, by the way. It is interesting. As 
you pointed out, the views it contains come from Asians making 
this recommendation to us, and Senator Voinovich, I brought one 
for you, too.
    Senator Voinovich. Thank you.
    Mr. Bereuter. I don't think we have enough experience to 
really know, but my cautionary note on, I think it is the top 
of page three, about marketing, there is great expertise in 
marketing and public relations in our private sector, 
extraordinary, the best in the world. But public diplomacy is 
not like selling toothpaste. So we need to take that expertise, 
particularly the kind of surveys that they have expertise in 
conducting, and realize that that is an expertise that is 
important to public diplomacy, but it is only an element in our 
arsenal and you can take it too far.
    I was concerned, for example, what I heard mentioned 
earlier about strengthening the White House's role in public 
diplomacy. That seems natural, yet public diplomacy is not 
selling the foreign policy du jour of an Administration. 
Administrations come and go. Presidents come and go. But what 
we are talking about, as you heard before, in part is long-term 
investment and building the relationships with the foreign 
publics. Sometimes that only will pay off in a generation or 
two.
    So I think it is an interesting step. It can be a very 
positive step. I just give you the cautionary note that I 
explain more fully in my testimony here today.
    Senator Akaka. Thank you.
    Ambassador Bagley, in your testimony, you recommended that 
the State Department should review its public diplomacy area 
office staffing structure to determine if the current 
arrangement is functioning optimally. In your experience, can 
you please explain this issue in a little more detail?
    Ms. Bagley. Thank you, Mr. Chairman. Yes, the area offices, 
as the previous panel of State Department officials has already 
noted, come from the 1999 merger where they basically--my 
view--kind of plunked the USIA structure into the State 
Department without, I think, a lot of thought as to whether it 
would really work well. So you have a PD office within, say, 
EAP Asia, and the PD officer reports to the DAS, the Deputy 
Assistant Secretary, and then to the Assistant Secretary 
nominally, but then really reports to the Under Secretary for 
Public Diplomacy and Public Policy. So while he or she is 
working within that area office, he is not really responsible 
to that office in itself. He or she is responsible to the Under 
Secretary.
    So it makes for a kind of difficult arrangement because 
from what we have found talking to a lot of these PD officers, 
they don't really feel that they are part of the policy 
formulation. Although they report to the Deputy Assistant 
Secretary, they don't really feel that they are really part of 
the team because ultimately they are reporting to the Under 
Secretary for Public Diplomacy.
    So it is an amalgam that doesn't, I don't think, seem to 
work, although on this particular point, I am speaking for 
myself. The Commission has not taken a position on it. 
Basically, on the Commission, we have each had differing 
positions and we came to the conclusion that it needed to be 
looked at again. It needs to be analyzed. Perhaps it is not 
working. Perhaps you don't even need a PD officer in the area 
offices. It might be better to have them in on the country desk 
where all the policy formulation begins.
    The bottom line is if you want to integrate the PD function 
into the State Department, we are not doing a very good job 
within that context. So I think it needs to--and the 
Commission's recommendation is that we need to look at it. The 
Congress needs to look at it. The State Department needs to 
review it to see if this is really an effective use of the 
public diplomacy officer.
    Senator Akaka. Well, thank you very much for that.
    I wanted to follow up with anybody from the panel who 
wishes to comment, whether you agree with Ambassador Bagley's 
comment about the public diplomacy area offices. Ms. Freiberg.
    Ms. Freiberg. Yes, Senator. I do think there needs to be 
some clarification of what these relationships are. I would 
like to suggest that the PD area offices report to the Under 
Secretary for Public Diplomacy and make it that simple, 
although I realize none of this is simple at all. I think when 
you are being reviewed by one set of offices and you are 
getting your policy direction and your resources from another 
office, it can make life confusing. Although there may be 
Foreign Service officers in this room who would disagree with 
me on that, it is the feed back I have received from many 
practitioners. As I said in my testimony we need to strengthen 
the role of the Under Secretary for Public Diplomacy.
    Senator Akaka. Any further comments on this?
    [No response.]
    Well, thank you very much. I just want to ask you for your 
top three recommendations for improving the effectiveness of 
U.S. public diplomacy. It is not that simple, is it?
    Ms. Bagley. Could I answer?
    Senator Akaka. Ms. Bagley.
    Ms. Bagley. I think for the Commission, our top three 
priorities would be, first, training at FSI. We should do a 
better job of training our PD officers. We are recommending 
that there be a substantive training course of 9 months or so 
at FSI, the Foreign Service Institute, that would be similar to 
the one that they give to the economics officers, which is very 
highly regarded. So that is our first point.
    Second point, outreach. We need to build PD outreach into 
the standardized Employment Evaluation Report (EER), so that we 
actually know that in the work requirements, there is a 
requirement for communications skills. That would encourage or 
incentivize the public diplomacy officer to actually do more 
communications and develop those skills because he or she would 
be evaluated on that as part of their work requirement.
    And finally, PD area offices. As Mr. Chairman, you already 
dealt with and asked the question both of the previous panel 
and of us, we do need to undertake an honest zero-based 
assessment of the PD area offices to see if they are 
functioning optimally, or if they are not, how they should 
function. We have some ideas about that, but we are not making 
a judgment as to whether it works. We just think it should be 
reevaluated.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Senator, your question took me back a little 
bit, but I will try to take a stab at it. I heard Secretary 
Glassman elsewhere today say we spend basically the same amount 
on the Broadcasting Board of Governors as we do on public 
diplomacy. Broadcasting is important, but I think more 
resources are needed for other forms or methods of delivering 
public diplomacy.
    Second, I think that the Bureau of Education and Cultural 
Affairs funds should be put in the hands of your public 
diplomacy officers in the regions.
    I believe that--third, I would say that more of the USAID 
programs, development programs, ought to have integrated within 
them the objectives of trying to bring practical experience in 
democracy and pluralism to the foreign publics as an integral 
part of those USAID programs. That might be my top three.
    Senator Akaka. Thank you. Ms. Schuker.
    Ms. Schuker. Yes, thank you, Mr. Chairman. I would say 
three points, and this relates to some of the other comments 
already made. First, is the understanding that public diplomacy 
has a long-term responsibility, that it is not just a byproduct 
or related to specific short-term policy goals. I think this is 
where we have been running into a lot of trouble during 
certainly these last years in terms of both the perception 
abroad of the United States and the role of public diplomacy, 
and it has sort of become a handmaiden to policy, a specific 
policy, as opposed to informing the policy and having a longer-
term profile. That gets back to values and principles.
    Second, in terms of the organization of public diplomacy, I 
think there has got to be an understanding that there is a very 
unique function for public diplomacy. It is a two-way street. 
It is ``to the street'' and not directly to officials, which is 
the sort of meat and potatoes, so to speak, of the State 
Department. This is part of, I think, the confusion of the 
locus of public diplomacy, although I am not, as I said in my 
testimony, suggesting that it be totally changed at this point, 
but it certainly needs to be addressed in terms of how the 
public diplomacy function is organized and respected.
    And that gets directly to the money, the resources. It is 
very difficult for the State Department, I think, to run 
effective public diplomacy or to run public diplomacy 
effectively when its budget is basically a minuscule amount of 
what, for example, the Department of Defense has in terms of 
public diplomacy. If you are going to run an interagency 
function and are going to basically sit at the top of the food 
chain and be able to be effective interagency, you have to have 
both the imprimatur as well as the resources to put your money 
where your mouth is in terms of the work.
    Senator Akaka. Thank you very much.
    May I ask that others of you please respond. We are going 
to send these questions to you and have you respond to this.
    I want to thank all of you as witnesses today. You have 
proposed some exciting and new ideas to make our public 
diplomacy more effective. I hope the next President will give 
them priority. I plan to do what I can by bringing them 
directly to the new President's attention.
    I want to thank you again. The hearing record will be open 
for one week for additional statements or questions other 
Members may have, and I have already told you I will send you 
my questions for your responses and look forward to your 
responses.
    Thank you very much for being here, and this hearing is 
adjourned.
    [Whereupon, at 4:54 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
